<html>
<title> - DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2020</title>
<body><pre>[Senate Hearing 116-]
[From the U.S. Government Publishing Office]



 
       DEPARTMENT OF DEFENSE APPROPRIATIONS FOR FISCAL YEAR 2020

                              ----------                              


                       WEDNESDAY, MARCH 27, 2019

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10 a.m. in room SD-138, Dirksen 
Senate Office Building, Hon. Richard Shelby, (chairman) 
presiding.
    Present: Senators Shelby, Alexander, Murkowski, Moran, 
Hoeven, Boozman, Durbin, Murray, Tester, Schatz, and Baldwin.

                         DEPARTMENT OF DEFENSE

                         Department of the Army

                        Office of the Secretary

STATEMENT OF HON. DR. MARK T. ESPER, SECRETARY


             OPENING STATEMENT OF SENATOR RICHARD C. SHELBY


    Senator Shelby. The Committee will come to order.
    This morning, we are pleased to welcome Secretary Esper and 
General Milley to the Committee for an update on the Army 
operations and a review of the 2020 budget request.
    The Army is seeking $182.3 billion in its current request, 
which is an increase of $2.4 billion over amounts appropriated 
for 2019, and while we are here to focus on this budget 
request, we are also interested in hearing how the Army is 
executing the money that we appropriated, Mr. Secretary, in 
2019.
    Readiness remains the cornerstone of the Army's resourcing 
decisions, and although building and maintaining readiness is 
the number one priority, it must be balanced against the need 
to meet manning goals and to modernize and enhance our 
competitive advantage.
    The fiscal year 2020 request slows down the pace of the 
Army's plan to get to 500,000 active-duty soldiers. The new 
plan is to add 2,000 troops, as I understand it, in 2020 and 
subsequent years, with proportionate growth in the Army 
National Guard and the Army Reserve.
    This Committee understands that the budget request before 
us is informed by the 2018 National Defense Strategy, and that 
the recent creation of the Army Futures Command has further 
changed many planning assumptions here.
    The American people expect that their military will be 
adequately resourced and that the funding that they provide for 
that purpose will be diligently examined to ensure that it is 
well spent.
    To that end, this Committee considers the President's 2020 
budget request. We will be looking closely at both the 
reductions and eliminations that the Army recently undertook 
and the tradeoffs that were made since the Army defended its 
previous budget before Congress.
    We appreciate your service, Mr. Secretary and General 
Milley, and look forward to working with you during the 
appropriations process to meet the needs of the Army in today's 
complex and strategic environment.
    [The statement follows:]
            Prepared Statement of Senator Richard C. Shelby
    Good morning, the Subcommittee will come to order.
    I am pleased to welcome Secretary Esper and General Milley to the 
Committee for an update on Army operations and a review of the fiscal 
year 2020 budget request.
    The Army is seeking $182.3 billion in its current request, which is 
an increase of about $2.4 billion over amounts appropriated for fiscal 
year 2019. While we are here to focus on this budget request, we are 
also interested in hearing how the Army is executing 2019 funds.
    Readiness remains the cornerstone of the Army's resourcing 
decisions. Although building and maintaining readiness is the number 
one priority, it must be balanced against the need to meet manning 
goals and to modernize and enhance our competitive advantage.
    The fiscal year 2020 request slows down the pace of the Army's plan 
to get to 500,000 active duty soldiers. The new plan is to add 2,000 
troops in fiscal year 2020 and subsequent years, with proportionate 
growth in the Army National Guard and Army Reserve.
    This Committee understands that the budget request before us is 
informed by the 2018 National Defense Strategy, and that the recent 
creation of the Army Futures Command has further changed many planning 
assumptions.
    Moreover, the American people expect that their military will be 
adequately resourced and that the funding that they provide for that 
purpose will be diligently examined to ensure that it is well spent.
    To that end, as this committee considers the President's fiscal 
year 2020 budget request, we will be looking closely at both the 
reductions and eliminations that the Army recently undertook and the 
tradeoffs that were made since the Army defended its previous budget 
before congress.
    Gentlemen, we appreciate your service and look forward to working 
with you during the appropriations process to meet the needs of the 
Army in today's complex strategic environment.
    Now I turn to the Vice Chairman, Senator Durbin, for his opening 
remarks. Thank you.

    Senator Shelby. Senator Durbin.

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Mr. Chairman, I am pleased to join you in 
welcoming the Secretary of the Army Mark Esper and the Chief of 
Staff of the Army General Mark Milley to our hearing to review 
the Army's budget request for fiscal year 2020. Thank you both 
for being here to discuss your priorities.
    Since this is General Milley's first appearance before the 
Subcommittee in several months, I want to take this occasion to 
congratulate you on your nomination to be the next Chairman of 
the Joint Chiefs of Staff. I think it is an excellent choice, 
and I am looking forward to working with you in that capacity.
    If you name a hotspot in the world, the odds are good that 
the men and women in the United States Army are there, over 
81,000 Army soldiers deployed worldwide: Afghanistan, South 
Korea, Iraq, Syria, Europe, and beyond.
    Many of the decisions made in this budget were focused on 
China and Russia's ability to match or surpass the U.S. 
military, despite the fact that the United States spends more 
on national defense than China and Russia and most of our major 
enemies combined. In fact, the Army's fiscal year 2020 OCO 
(Overseas Contingency Operations) budget--request of $63 
billion is itself almost as high as Russia's entire national 
defense budget this year.
    We have already debated privately and personally and will 
continue to debate how we measure defense budgets, why it is 
more expensive to put a soldier, American soldier in the field, 
and the various competitive advantages that perhaps some of our 
enemies might have. But the fact is, in raw numbers, we are 
dramatically outspending every other country on earth when it 
comes to national defense. We do not want to come in second in 
any war, but at some point, we have to pause, step back, and 
take a look and ask ourselves, ``Is this money really achieving 
the defense and security that we need as a nation?''
    Our non-war defense budget grew by 18 percent between 2017 
and 2019, and yet we know our defense budget is growing by 
leaps and bounds.
    With these large budgetary increases, any institution would 
struggle to responsibly manage the mountains of money that we 
are pushing into the Department of Defense.
    This year, we have a new problem: the President. He is 
diverting defense funds for a border wall so he can keep a 
campaign promise.
    On Monday, Congress learned that the $1 billion in excess 
Army pay and benefits will not go back into the Army and other 
military priorities but will go to build the President's wall.
    The President also wants to cancel $3.6 billion in military 
construction projects that the Army and other services asked 
for last year so he could build his wall. How will those 
military construction needs be met?
    The President's appointees hope Congress gives them the 
money in the next year's budget to make up for what they are 
taking out of this year's budget. Meanwhile, we have no answers 
on how the armed forces are going to pay for pressing readiness 
issues this year, like repairing bases from natural disasters, 
paying the cost of deploying soldiers and the National Guard to 
our border.
    So it would appear the President is really building his 
wall at the expense of America's military. So what we have 
seen, what we have seen to be seeing, is that the Congress and 
the military services are seeing dramatic changes in the way we 
establish a defense budget.
    Some of the ordinary practices between Congress and the 
Department of Defense when it comes to reprogramming and 
consent from Congress are being pushed aside in the name of 
this wall. This should be extremely concerning to all of us and 
every American, each of whom is asking for clear answers to who 
is being held accountable for spending tax dollars and is the 
military still the President's top priority.
    We have many other issues to discuss with this panel, and I 
have only mentioned a few. I look forward to the testimony 
about efforts to overhaul the Army acquisition, cut waste, and 
move on to our top priorities.
    [The statement follows:]
            Prepared Statement of Senator Richard J. Durbin
    Mr. Chairman, I am pleased to join you in welcoming the Secretary 
of the Army, Mark Esper, and the Chief of Staff of the Army, General 
Mark Milley, to our hearing to review the Army's budget request for 
fiscal year 2020. Thank you both for being here to discuss your 
priorities to maintain and modernize our great Army.
    Since this is General Milley's first appearance before the 
Subcommittee in several months, I would also like to congratulate him 
for his forthcoming nomination to be the next Chairman of the Joint 
Chiefs of Staff. Not many military promotions are announced by tweets 
in early December, but I am certain that the Senate will receive the 
standard paperwork on General Milley's nomination at the appropriate 
time.
       growing defense budgets to counter emerging world threats
    If you name a hot spot in the world, the odds are good that the 
women and men of the United States Army are there. Over 81,000 Army 
soldiers are deployed worldwide in Afghanistan, South Korea, Iraq, 
Syria, and Europe.
    Many of the decisions made in this budget were focused on China and 
Russia's ability to match or surpass the United States' military 
capability, despite the fact the U.S. spends more on national defense 
than China and Russia--and several other countries--combined.
    In fact, the Army's fiscal year 2020 OCO budget request of $63 
billion is itself almost as high as Russia's entire national defense 
budget this year.
    Our non-war defense budget grew by 18 percent between 2017 and 
2019. And yet, how we can find ourselves struggling to keep up with our 
adversaries' new technologies remains a puzzle.
                   risks of massive budget increases
    With these large budgetary increases, any institution would 
struggle with responsible management of all those funds.
    But this year we have an additional concern: the President is 
diverting defense funds to the border wall so that he can fulfill a 
campaign pledge.
    On Monday, Congress learned that $1 billion in excess Army pay and 
benefits will go not toward top military priorities, but to build a 
border wall that Congress never agreed to fund.
    The President also wants to cancel $3.6 billion in military 
construction projects that the Army and the other services asked for 
last year so that he can fund other portions of the wall.
    How will those military construction needs get met?
    The President's appointees hope Congress gives them money to re-
start them in fiscal year 2020.
    Meanwhile, we have no answers on how the Armed Forces are going to 
pay for pressing readiness issues this year, like repairing bases from 
natural disasters, or paying the cost of deploying soldiers and the 
National Guard to the border.
    So it would appear that the President has taken a hostage, and it 
is unfortunately our U.S. military.
    What we seem to be seeing is that the Congress and the military 
services are both losing control of a defense budget that is escalating 
very quickly.
    This should be extremely concerning to every American, each of whom 
is owed clear answers to who is accountable for spending their tax 
dollars.
                               conclusion
    We have many other issues to discuss with this panel--only some of 
which I have mentioned. I look forward to hearing from Secretary Esper 
and General Milley about their efforts to overhaul Army acquisition, 
cut waste, and move out on their top priorities.

    Senator Shelby. Secretary Esper, General Milley, we again 
welcome you to the Committee.
    Secretary, your written testimony and the General's written 
testimony will be made part of the record. You proceed as you 
wish.

              SUMMARY STATEMENT OF HON. DR. MARK T. ESPER

    Secretary Esper. Chairman Shelby, Ranking Member Durbin, 
and distinguished members of the Committee, thank you for the 
opportunity to appear before you today.
    I want to first thank Congress for helping us reverse the 
readiness decline that developed following several years of 
budget uncertainty. Because of the strong support provided in 
the fiscal year 2018 and fiscal year 2019 budgets, we have 
increased the number of fully-ready Brigade Combat Teams by 55 
percent over the past 2 years. However, I am confident we would 
prevail against--while I am confident we would prevail against 
any foe today, our adversaries are working hard to contest the 
outcome of future conflicts.
    As a result, the Army stands at a strategic inflection 
point. If we fail to modernize the Army now, we risk losing the 
first battles of the next war. For the past 17 years, the Army 
bore the brunt of the wars in Iraq and Afghanistan. For over a 
decade, we postponed modernization to procure equipment 
tailored to counter insurgency operations.
    Our legacy combat systems, designed for high-intensity 
conflict, entered service when I joined the Army in the early 
1980s. While they dominated in past conflicts, incremental 
upgrades for many of them are no longer adequate for the 
demands of future battle, as described in the National Defense 
Strategy.
    We must build the next generation of combat systems now 
before Russia and China outpace us with their modernization 
programs.
    Despite Russia's looming economic difficulties, they are 
steadily upgrading their military capabilities. In addition to 
field testing their next-generation T-14 Armata tank, they 
continue to advance the development of their air defense and 
artillery systems; and when combined with new technology, such 
as drones, cyber, and electronic warfare, Russia has proven its 
battlefield prowess.
    We have no reason to believe that Moscow's aggressive 
behavior will cease in the short term. Russia's blatant 
disregard for their neighbors' sovereignty, as demonstrated in 
Ukraine and Georgia, is a deliberate strategy meant to 
intimidate weaker states and undermine the NATO alliance.
    In the long run, China presents an even greater challenge. 
They continue to focus their military investments in cutting-
edge technologies, such as artificial intelligence, directed 
energy, and hypersonics. Beijing's systematic theft of 
intellectual property is also allowing them to develop the 
capabilities cheaper and faster than ever before.
    Additionally, China's coercive economic practices are 
expanding its sphere of influence in ways contrary to our 
Nation's interests.
    To deter the growing threat posed by great power 
competitors and to defeat them in battle, if necessary, we must 
leap ahead to the next generation of combat systems, and we 
must do so now.
    Over the past year, the Army took a major step forward in 
reorganizing its entire modernization enterprise with the 
establishment of Futures Command. In doing so, we stripped away 
layers of bureaucracy and streamlined our acquisition process 
while achieving unity of command and greater accountability.
    Guided by our six modernization priorities, Army Futures 
Command is hard at work developing the systems needed to 
maintain battlefield overmatch in future conflicts.
    When we received our budget this time last year, we felt 
that it was unreasonable to ask Congress for the additional 4- 
to $5 billion needed annually to fund our modernization without 
first looking internally to find the necessary resources. As a 
result, the Army senior leaders took an unprecedented 
initiative to comprehensively review every Army program.
    Our goal was simple: Find those programs that least 
contribute to the Army's lethality and reallocate those 
resources into higher priorities. After over 50 hours of 
painstaking deliberations, we eliminated, reduced, or delayed 
nearly 200 programs, freeing up over $30 billion over the next 
5 years. We then reinvested this money into our top priorities, 
those systems and initiatives we need to prevail in future 
wars.
    The Army will continue to ruthlessly prioritize our budgets 
to provide a clear predictable path forward that will achieve 
our strategic goals. That process is under way now as we 
develop next year's budget.
    Support for the Army's fiscal year 2020 budget is critical 
to building the Army the Nation needs and demands. Those who 
are invested in legacy systems will fight to hold onto the 
past, while ignoring the billions of dollars in opportunity 
created by our investments in new technologies and what it 
means for the Army's future readiness.
    While change will be hard for some, we can no longer afford 
to delay the Army's modernization. We believe we are following 
the sound guidance conveyed to us by many of you.
    In this era of great power competition, we cannot risk 
falling behind. If left unchecked, Russia and China will 
continue to erode the competitive military advantage we have 
held for decades.
    The Army has a clear vision, which I ask be entered into 
the record.
    Senator Shelby. Without objection.
    [The information follows:]

    The purpose of the Army Vision is to guide the development of a 
modern, ready, and lethal Army prepared to meet the nation's needs over 
the next 10 years, and is articulated as follows: ``The Army of 2028 
will be ready to deploy, fight and win decisively, against any 
adversary, in a joint, multi-domain, high-intensity conflict. The Army 
will do this through the employment of modern manned and unmanned 
ground combat vehicles, aircraft, sustainment systems, and weapons, 
coupled with robust combined arms formations and tactics based on a 
modern warfighting doctrine and centered on exceptional Leaders and 
Soldiers of unmatched lethality.''
    The Army will further achieve this vision through the following 
five objectives in the coming years: man, organize, train, equip, and 
lead. We will ensure that our Soldiers, civilian workforce, and their 
families enjoy the professional opportunities and quality of life they 
deserve. From the top down we must also remain committed to the Army 
Values. The Army is at its best when we work and fight as one team, and 
our Army Values, coupled with our Warrior Ethos, will guide and serve 
us well as we face the challenges ahead.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Secretary Esper. With a sound strategy to maintain 
battlefield overmatch, we are making the tough choices. We now 
need the support of Congress to modernize the force, and it 
starts with the fiscal year 2020 budget.
    The bottom line is this. We owe it to our soldiers to 
provide them the weapons and equipment they need, when they 
need it, to win decisively in future battlefields.
    Thank you again for your continued support. I look forward 
to your questions and appreciate the opportunity to discuss 
these matters before you today.
    Senator Shelby. General Milley.
STATEMENT OF GENERAL MARK A. MILLEY, CHIEF OF STAFF, 
            U.S. ARMY
    General Milley. Chairman Shelby and Ranking Member Durbin 
and distinguished members of this Committee, thank you for the 
opportunity to join Secretary Esper here today. It remains an 
incredible privilege for me to represent all of the 1 million 
soldiers in the regular Army, National Guard, and United States 
Army Reserve that are arrayed in 18 divisions and 58 Brigade 
Combat Teams and deployed with over 180,000 soldiers today in 
140 countries worldwide on freedom's frontier.
    While much of our testimony today and your questions will 
focus on the Army's challenges and how to make us stronger and 
more lethal, it is important to note up front for you, the 
Committee, for the entire Congress, for the American people, 
our allies, and perhaps, most importantly, to our adversaries 
that the United States Army is highly capable today. We are 
globally deployable today on very short notice. We can go 
anywhere in the world. We have the training, the equipment, the 
people, and the leaders to prevail today in ground combat 
against anyone, anywhere, anytime.
    I concur with Secretary Esper's comments on the threats 
posed by China and Russia, and they are in fact rising. The 
international order and, by extension, the United States' 
interests are under increasingly and dangerous pressure. China 
is a significant threat to the United States and our allies in 
the mid and long terms, and I would categorize them as a 
revisionist power seeking to diminish our influence in the 
Pacific and establish themselves as the controlling regional 
power in Asia, and they are setting conditions to challenge the 
United States on a global scale.
    Russia seeks to return to global great power and will 
continue to challenge the United States, not only in Europe, 
but also in the Middle East, Asia, Africa, the Arctic, and the 
Western Hemisphere.
    Russia continues to undermine NATO (North Atlantic Treaty 
Organization) as an alliance and does sow dissent throughout 
the European continent and, as we know, in our own homeland 
through a variety of means.
    Russia remains the only current existential threat to the 
United States and will likely become increasingly opportunistic 
in the near term, in my view.
    In the last 17 years, our strategic competitors have eroded 
our military advantages as outlined by Secretary Esper. With 
your help, starting 2 years ago, we began to restore our 
competitive advantage, and our recent budgets have helped 
improve readiness and lay the groundwork for future 
modernization. And we ask with this budget that you sustain 
those efforts.
    Our goal remains 66 percent, two-thirds, of the active-duty 
Army Brigade Combat Teams and 33 percent of the National Guard 
and U.S. Army Reserve units stay at the highest levels of 
readiness. Those numbers, those levels of readiness, are what 
we need to be able to align with the strategy that is laid out 
in the National Defense Strategy, and with continued, 
consistent, predictable congressional support, we can reach 
those levels of readiness sometime in 2022.
    Specifically, this budget will fund, in terms of readiness, 
58 Brigade Combat Teams, 6 Security Force Assistance Brigades 
for the total Army, 32 Combat Training Center rotations, to 
include four for the National Guard, increased prepositioned 
stocks in both Europe and INDOPACOM and many, many other 
readiness initiatives.
    In terms of modernization, which is really just another 
term for future readiness, this budget will fund the improved 
capabilities across our six modernization priorities, which 
include 31 specific programs that are embedded within them. In 
addition, it funds 51 other programs that are of significant 
importance to the Army. In short, it will increase the 
lethality of munitions across the globe and increase lethality 
of the Army in the future.
    It will also fill very specific solutions that we have 
identified, reference 17 critical gaps relative to our near-
peer competitors of China and Russia, and I can brief you in 
detail on those in a classified hearing, if you so choose.
    Lastly, I want to highlight that this Committee and 
Congress as a whole has provided us tremendous support over the 
last several years. We recognize that, and we are committed to 
applying our resources deliberately and responsibly, 
understanding that they have been entrusted to us by Congress 
and the American people. And we will continue to do that going 
forward to ensure that our soldiers--that we remain with our 
solemn obligation to our soldiers, that we never send our sons 
and daughters in harm's way unless they are properly trained, 
fully manned, and have the best equipment money can buy and are 
extraordinarily well led.
    We recognize that we the United States Army and indeed we 
the United States military are extraordinarily expensive. We 
also believe that our strength preserves the peace globally in 
terms of great power competition and the awful potential for 
great power war. We know that the only thing more expensive 
than preserving the peace is to have a war, and the most 
expensive is to lose a war.
    Thank you again for your continued support to our soldiers 
and their families, and I look forward to answering your 
questions.
    [The statement follows:]
             Prepared Statement of Hon. Mark T. Esper and 
                         General Mark A. Milley
                              introduction
    America's Army stands ready today to deploy, fight, and win our 
Nation's wars. The Army has made great progress in recent years, 
recovering from depleted levels of readiness following extended periods 
of sustained conflict and reduced defense spending. Our near-peer 
competitors, however, capitalized on this period to advance their own 
positions by modernizing their militaries and reducing the overmatch we 
held for decades. Aligned with the National Defense Strategy (NDS), the 
Army is pursuing a path to ensure we stay ahead of our competitors and 
remain ready and lethal into the future.
    The Army's Vision and Strategy outline the force needed to prevail 
over the threats of the future, along with the plan for building that 
Army. To accomplish this, the Army's efforts are focused on three 
priority areas: building readiness for high-intensity conflict against 
strategic competitors; modernizing our doctrine, equipment, and 
formations to conduct multi-domain operations; and reforming our 
personnel system, business processes, and fiscal management to ensure 
our resources are put towards the highest priority activities. 
Additionally, the Army will continue to take care of its people, live 
the Army Values, and strengthen our alliances and partnerships to 
sustain long-term success in wartime and peace.
    We are grateful to Congress for the strong and timely support 
provided to the Army in the fiscal year 2019 appropriations. Receiving 
this funding on time reduced risk to short term readiness and allowed 
us to make significant investments towards our six modernization 
priorities. In order to achieve the defense objectives in the NDS and 
meet our goals as outlined in the Army Vision, we must receive 
predictable, adequate, sustained, and timely funding in the future. The 
Army's total fiscal year 2020 budget request is $182.3 billion, 
consisting of $150.7 billion for base requirements and $31.6 billion 
for Overseas Contingency Operations requirements. This request provides 
the resources the Army needs to build readiness, while modernizing for 
the future.
                         strategic environment
    The Army faces a global security environment that continually grows 
more competitive and volatile. The challenges are many: the reemergence 
of great power competition; a resilient but weakening post-World War II 
order; accelerating technological advancements empowering state and 
non-state actors; and persistent threats to the Homeland. The Army must 
be ready now, and in the future, to confront this challenging strategic 
environment. We must have an Army prepared for high-intensity conflict, 
modernized to extend overmatch against near-peer adversaries, and 
trained to fight as part of the Joint Force alongside our allies and 
partners, all while sustaining our ability to conduct irregular 
warfare.
    The modern battlefield encompasses all domains--air, land, sea, 
space, and cyber-space--and is increasing in geographic scale. Near-
peer competitors, like China and Russia, are aggressively pursuing 
modernization programs to erode American overmatch. They have developed 
sophisticated anti-access and area denial (A2/AD) systems, fires, 
cyber, electronic warfare, and space-based capabilities that generate 
layers of stand-off to disrupt the deployment of military forces, deny 
the build-up of combat power, and separate Joint Force capabilities in 
time and space. These capabilities may embolden more aggressive 
behavior in the conventional realm. China's military modernization 
program aims to transform the People's Liberation Army into a modern, 
mechanized, Information Age force in the next one to two decades and a 
world-class military capable of strategic force projection and 
warfighting by mid-century. Their military strategy seeks to protect 
Chinese interests outside of Asia and into Europe, the Middle East, and 
Africa. Furthermore, Russia is likely to threaten our interests for the 
next 20 years as they attempt to regain control of historic spheres of 
influence and shape European economic and security structures in their 
favor. Although we may not face China and Russia directly, we are 
likely to face their systems and methods of warfare as they proliferate 
military capabilities to others.
    Regional state adversaries, namely North Korea and Iran, also 
present significant challenges as they pursue advanced capabilities and 
weapons of mass destruction to gain regional influence and ensure 
regime survival. Additionally, transnational terrorist organizations 
continue to pose a threat to our Homeland and our interests, as well as 
our allies and partners. The Army must be prepared to defeat and deter 
highly capable adversaries while disrupting violent extremists and 
simultaneously defending the Homeland.
    Today, the Army contributes to our Nation's efforts to counter 
these challenges by providing Combatant Commanders over 179,000 
Soldiers in more than 140 countries, including 110,000 Soldiers 
deployed on a rotational basis. This includes over 30,000 Soldiers 
supporting operations in the Middle East and Afghanistan; 8,000 
Soldiers supporting NATO operations and the European Deterrence 
Initiative; and over 17,000 Soldiers providing a forward American 
presence on the Korean Peninsula. Additionally, Army forces remain 
prepared to respond to other contingency requirements, both abroad and 
at home. Concurrently, the Army is investing in the research and 
development of the next generation of weapons and equipment needed to 
stay ahead of our adversaries. Through a disciplined prioritization of 
resources, the Army will remain postured to defend the Nation in an 
increasingly dangerous world.
                               readiness
    America's Army stands ready today to defeat any adversary that 
threatens our Nation and our national interests. We have made great 
progress in rebuilding warfighting readiness, which remains the Army's 
number one priority as we increase lethality to prepare for the future. 
Ready forces must be organized, trained, and equipped for prompt and 
sustained ground combat. This ensures the Army can deploy, fight, and 
win decisively in high-intensity conflict against any adversary, 
anytime, and anywhere. Over the past year, the Army balanced our force 
structure, increased manning in combat units, filled equipment 
shortfalls, and improved deployability to build readiness across the 
force. From September 2016 to December 2018, we increased the number of 
ready Brigade Combat Teams from 18 to 28, and more broadly, increased 
readiness across all Army units by nearly 11 percent. We achieved these 
readiness gains despite sustained operational demand for Army units. 
Our fiscal year 2020 budget request sustains this momentum, so the Army 
can achieve our readiness objectives by 2022.
    The Army has implemented several readiness initiatives to 
reorganize for high- intensity conflict against near-peer competitors. 
We are increasing combat readiness by working to fill our operational 
units to 100 percent of authorized strength this year and 105 percent 
of strength by the end of 2020. Furthermore, we reduced the non- 
deployable rates of Soldiers from 15 percent in 2015 to 6 percent 
today. We anticipate achieving our goal of 5 percent non-deployable 
Soldiers by the end of this year. This equates to thousands more 
Soldiers ready to deploy in support of global contingency operations. 
We also rebalanced our force structure to increase lethality by 
initiating the conversion of two Infantry Brigade Combat Teams to 
Armored Brigade Combat Teams, our most potent battlefield formation. 
Furthermore, we plan to modestly grow the Regular Army to 480,000 with 
associated growth in the Army National Guard and the Army Reserve in 
2020. This growth will allow the Army to fill critical gaps in the near 
term in cyber, air and missile defense, and fires while we develop the 
necessary force structure and end strength needed to execute Multi- 
Domain Operations.
    Another critical element of readiness is training. We overhauled 
Army basic training to develop more lethal, disciplined, and resilient 
Soldiers. This includes extending Infantry One Station Unit Training 
from 14 weeks to 22 weeks. Initial reports show a significant reduction 
in attrition and injuries with significant improvements in physical 
fitness, land navigation, and marksmanship skills based on the 
additional training time and a reduced Drill Sergeant to trainee ratio. 
Other branches may see similar adjustments through fiscal year 2024.
    Army collective training focuses on high-intensity conflict, with 
an emphasis on operating in complex terrain, electronically degraded 
environments, and under constant surveillance. Training is tough, 
realistic, iterative, and task focused. We eliminated or reduced over 
85 individual training requirements to unburden commanders and allow 
them to focus on training their units. In the Army National Guard and 
the Army Reserve, we increased the training days for select units to 
increase the pool of reserve component units available to support 
operational requirements. Additionally, we maximized capacity at our 
combat training centers to meet Army force readiness requirements. The 
Army will execute 26 Decisive Action Training Environment rotations for 
Brigade Combat Teams and six other mission specific rotations for a 
total of 32 combat training center rotations in fiscal year 2019. 
Moreover, we continue to develop a Synthetic Training Environment which 
will integrate live, virtual, constructive, and game-based training 
environments into a single platform to increase home station training 
repetitions and enhance training realism in a variety of scenarios and 
locations.
    We also approved the new Army Combat Fitness Test (ACFT) to 
fundamentally improve our fitness culture, reduce injuries, increase 
deployability, and increase the probability that a Soldier survives on 
the battlefield of the future. We have focused our fitness standards on 
the skills needed to fight in sustained close combat where physical 
toughness and endurance will be pushed to the extremes of human 
capacity. We began field-testing the ACFT in 2018 with 63 units across 
the Total Army and will begin full implementation this year. By the end 
of fiscal year 2020, the ACFT will be the fitness test of record for 
all Soldiers.
    Increasing readiness is also about improving our equipment. To this 
end, Army Materiel Command increased the spare parts inventory and 
ammunition stockpiles. The Army also redistributed equipment to Focused 
Readiness Units, which remain at higher readiness levels to support 
global response. Furthermore, we are making progress towards achieving 
ground and aviation equipment readiness goals Army-wide.
    To further improve equipment readiness and enhance our power 
projection capabilities, the Army uses prepositioned stocks to quickly 
execute operational plans and conduct contingency operations. We 
budgeted $1.7 billion in fiscal year 2019 and fiscal year 2020 to 
improve the readiness of Army Prepositioned Stocks. Additionally, we 
initiated a Configured-for- Combat effort to equip Army Prepositioned 
Stocks with combat enablers such as communications, modernized weapons, 
and counter-measure systems in order to speed our ability to build 
combat power. This reduces the time it takes to build combat power by 
weeks and significantly reduces the amount of strategic airlift 
previously required to deploy early entry Army forces. Follow-on forces 
will continue to rely on modern and ready strategic lift assets, 
especially sealift, to deliver ready and lethal ground forces in 
support of the Joint Force. We must continue to invest in robust power 
projection platforms and strategic lift capabilities to ensure we can 
rapidly deploy and operate anywhere in the world.
    Through these readiness initiatives, the Army is getting stronger 
by the month in manning, training, and equipping the force. With 
Congressional support, our fiscal year 2020 budget will allow us to 
continue to increase readiness and build lethality.
                             modernization
    While we continue to build readiness, the Army must also prepare 
for the future. This includes modernizing our doctrine, equipment, 
processes, and organizational structures to extend our overmatch 
against any competitor on any battlefield. Guiding our modernization 
effort is our Multi-Domain Operations concept, which identifies the 
threats and challenges we will face in the future. Great power 
competitors like China are developing capabilities to create standoff 
intended to frustrate our ability to build combat power and maneuver at 
will. To counter this, the Army will need to integrate our capabilities 
with the Air Force, Navy, and Marines even more in the future. The 
Army's new Multi-Domain Operations concept describes how we will 
synchronize our capabilities across all domains in support of the Joint 
Force.
    The Army is using the Multi-Domain Operations concept to inform 
future force development through numerous iterations of experimentation 
and analysis, including field experimentation with Multi-Domain Task 
Force pilots in the Indo-Pacific region and Europe. Our future success 
depends on modernized equipment, evolving doctrine, and the 
organizations essential to ensure overmatch against our competitors. 
These elements will work in concert to increase our combat capabilities 
across all domains.
    As a major step towards developing the capabilities needed for 
Multi-Domain Operations, we reorganized our entire modernization 
enterprise for greater speed and efficiency. Last year, the Army made 
its most significant organizational change in over 40 years by 
establishing the Army Futures Command (AFC). We stood up AFC in the 
innovation hub of Austin, Texas with a focus on providing unity of 
command and unity of effort for the modernization enterprise. For the 
first time, one commander is driving concept development, requirements 
determination, organizational design, science and technology research, 
and solution development. We located AFC outside of a traditional Army 
installation to increase their accessibility and ability to collaborate 
with industry and academia. Through these partnerships, AFC will 
identify and deliver new capabilities with greater speed and more 
efficient use of our resources.
    To guide AFC, the Army established a clear set of modernization 
priorities that emphasize rapid maneuver, overwhelming fires, tactical 
innovation, and mission command. Our six modernization priorities will 
not change, and they underscore the Army's commitment to innovate for 
the future. We have one simple focus--to make Soldiers and units more 
capable and lethal. Over the last year, we identified $16.1 billion in 
legacy equipment programs that we could reinvest towards 31 signature 
systems that are critical to realizing Multi-Domain Operations and are 
aligned with these priorities. The six Army modernization priorities 
are:
  --Long Range Precision Fires.--We will improve the range and 
        lethality of cannon artillery and increase missile capabilities 
        to ensure overmatch at each echelon. Army artillery weapons, 
        including Extended Range Cannon Artillery and the Precision 
        Strike Missile, will neutralize and dis-integrate adversary A2/
        AD networks, from extended ranges, to create windows of 
        opportunity for the Joint Force to exploit. The Extended Range 
        Cannon Artillery is on schedule for delivery in fiscal year 
        2023. It will protect and support maneuver forces in the close 
        and deep operational maneuver areas with an extended range out 
        to 70km and increased 6-10 rounds/minute volume of fire. The 
        Army has requested $1.31B for Long Range Precision Fires in the 
        fiscal year 2020 President's Budget to accelerate prototyping 
        and initial fielding.
  --Next Generation of Combat Vehicles.--The Army will modernize the 
        next generation of combat vehicles through technology 
        development, experimentation, and prototyping to ensure 
        overmatch against near-peer competitors. These vehicles will 
        employ greater firepower, mobility, and protection to 
        successfully maneuver on more lethal battlefields. They will 
        have manned and unmanned variants for combined arms maneuver, 
        and be built with future growth in mind. The first prototype 
        will arrive in fiscal year 2021 to accelerate experimentation 
        and initial fielding. We requested $2.0 billion in the fiscal 
        year 2020 President's Budget to deliver an initial capability.
  --Future Vertical Lift.--We will increase our competitive aviation 
        advantage with next generation aircraft to penetrate contested 
        airspace and support independent maneuver from greater 
        distances through extended range, endurance, and lifting 
        capacity. The most important FVL investments at the moment are 
        the Army's development of the Future Armed Reconnaissance 
        Aircraft, designed to address the gap left by retirement of the 
        Kiowa, and the Future Long Range Assault Aircraft. An 
        additional investment includes integrating unmanned aerial 
        systems, which we will prototype in fiscal year 2024, for 
        manned/unmanned teaming and improved lethality, situational 
        awareness, and survivability. Over $797.2M is included in the 
        fiscal year 2020 President's Budget to develop initial designs 
        and unmanned demonstration systems.
  --Army Network.--The Army Network supports mission command and the 
        continuous integration of combined arms and Joint capabilities. 
        We will deliver a resilient and secure tactical communications 
        network effective in the most challenging contested and 
        congested electromagnetic spectrum and cyber environments. This 
        network includes advanced information technology, hardware and 
        software, and a reduced electromagnetic signature. We have 
        allocated $2.28B in the fiscal year 2020 budget to build our 
        integrated tactical network as part of our network 
        restructuring.
  --Air and Missile Defense.--Advanced air and missile defense will 
        protect our forces from adversary aircraft, missiles, and 
        drones to enable joint operations. This includes both theater 
        systems and short-range air defense, like the Mobile Short- 
        Range Air Defense with directed energy technologies. The fiscal 
        year 2020 budget includes $1.4 billion to rapidly deliver an 
        initial capability by fiscal year 2022.
  --Soldier Lethality.--We will equip and train Soldiers to extend 
        overmatch through increased lethality, mobility, and 
        survivability against emerging threats. This includes improved 
        weapons, sensors, body armor, and training. The fiscal year 
        2020 budget includes $1.18B for prototyping, development, and 
        procurement of the Next Generation Squad Automatic Weapon and 
        Squad Rifle, Enhanced Night Vision Goggles, Integrated Visual 
        Augmentation System (HUD 3.0), and Synthetic Training 
        Environment.
    Eight Cross Functional Teams (CFTs), aligned under AFC, lead the 
development of these modernization priorities. The CFTs streamline Army 
acquisition processes to reduce the requirements process, shorten 
acquisition time, and, by engaging Soldiers early in development, 
ensure fielded systems are affordable and meet warfighter needs. This 
approach demonstrates our commitment to good stewardship of taxpayer 
dollars. In addition to this organizational realignment, we updated 
acquisition policies. Our new intellectual property policy will 
encourage private industry to work with our CFTs to develop innovative 
solutions to maintain technological overmatch.
    The Army is taking a holistic approach to modernization so we can 
achieve multi- domain dominance by 2028. Next generation equipment, 
combined with modern doctrine and formations, will allow the Army to 
maintain overmatch on future battlefields.
                                 reform
    Over the past year, the Army aggressively pursued reforms to free 
up time, money, and manpower for our highest priorities and to empower 
subordinate commanders to make more effective and timely decisions. In 
addition to our detailed program review process, we are executing the 
Army Reform Initiative, instituting fiscal discipline, scrutinizing 
contract management and contract services, and working towards 
financial auditability. Through these reform efforts, we realigned over 
$30 billion across the Future Years Defense Program (FYDP) for higher 
priority programs to build readiness and increase lethality.
    In our most significant reform effort, Army Senior Leaders 
conducted a detailed review of Army equipping programs for the fiscal 
year 2019 and fiscal year 2020 budgets. Through this in- depth, time 
intensive process, we eliminated, reduced, or consolidated nearly 200 
legacy programs to reallocate funding towards our modernization 
priorities. While each of these programs had value, we must continue to 
make hard choices to ensure we spend each dollar wisely and remain 
aligned with Army priorities.
    Through the Army Reform Initiative, we garnered over 700 ideas to 
eliminate, delegate, consolidate, or streamline Army policies, programs 
and practices. Inputs included work efficiencies, business process 
improvements, and structural realignments. For example, through our 
installation management reform effort, we are realigning Installation 
Management Command under Army Materiel Command and consolidating staff 
functions to garner personnel savings and improve efficiency. This 
integration of sustainment and installation functions provides the 
ability to prioritize resources on key requirements for both combat 
readiness and Soldier and family support. Additionally we have an 
ongoing headquarters reduction effort across multiple levels of 
command. The goal of the Army Reform Initiative is to eliminate 
redundancy and delegate authorities and resources to the lowest 
appropriate level of command. This allows for rapid actions and 
decisions while simultaneously saving resources for higher priorities.
    To improve fiscal discipline, we implemented the Command 
Accountability & Execution Review (CAER) to optimize the purchasing 
power of the Army's operating budget. This Army-wide program educates 
Army leaders on fiscal stewardship, updates policies to increase 
purchasing power, and creates a scorecard of key performance indicators 
to measure progress. While still early, CAER has generated a marked 
improvement in the efficient execution of the Army's budget for fiscal 
year 2018 and we anticipate greater success in fiscal year 2019.
    In 2018, contract management and contract services reform saved the 
Army $1.6 billion across the FYDP by eliminating contract redundancies, 
improving contract competition processes, and using data analytics for 
contracting decisions. We continue to implement category management and 
increased emphasis on the use of strategic sourcing contracts to 
improve management of services acquisitions. This year, we found 
service acquisition efficiencies in Army rotary-wing aircraft and 
ground system maintenance programs, food services, and the use of 
advanced data analytics. We saved over $400 million and are on pace to 
reach over $1 billion in budget savings from improved contract 
management in fiscal year 2019. These savings and their reinvestment 
into modernization are crucial to the Army and our progress towards the 
force of the future.
    The Army completed its first full financial statements audit in 
fiscal year 2018, and the audit findings are an important part of our 
larger reform effort. We fully support these audits, which help the 
Army identify ways to improve resource management and business 
practices. We are aggressively implementing corrective action plans and 
are on track to achieve auditable financial statements across all 
accounts by fiscal year 2022.
    Another major area of reform is the directed reorganization of our 
medical capabilities across the Army. Readiness is the primary focus 
throughout this effort because the Army will continue to be responsible 
for a ready medical force trained in clinical skills that are critical 
to wartime missions. As we transition medical treatment facilities to 
the Defense Health Agency, we are working to ensure we retain the 
necessary combat medical support at each echelon to maintain readiness 
and deliver premier military healthcare on the battlefield and in 
garrison. This reorganization provides us an opportunity to optimize 
the Army medical structure and plan for future medical capabilities.
    The Army will continue to pursue savings in time, money, and 
manpower that we can reinvest into our top priorities. These aggressive 
reform efforts, will sustain our momentum as we build readiness and 
increase lethality to prepare for high-intensity conflict against great 
power competitors.
                           allies & partners
    America's network of allies and partners is an unrivaled strategic 
advantage the Army is actively working to enhance. Every day, the Army 
works to strengthen alliances and build new partnerships through 
security cooperation and security assistance. A continued commitment to 
our allies and partners helps us compete against great power 
competitors and bolster deterrence. In support of our allies and 
partners we established Security Force Assistance Command (SFAC), which 
will consist of six subordinate Security Force Assistance Brigades 
(SFABs)--five Regular Army and one Army National Guard. The SFABs are 
specialized units whose core mission is to train, advise, assist, 
enable and accompany allied and partner nations. SFABs reduce the 
demand on conventional Brigade Combat Teams enabling them to focus on 
high- intensity conflict against near-peer threats. The Army deployed 
its first SFAB to Afghanistan in support of the Afghan National Army to 
validate the proof of concept, and we will apply what we learned to the 
second SFAB deployment this year.
    The Army works with Combatant Commanders to ensure our security 
cooperation efforts support their priorities as we work to increase 
interoperability and build partner capability. Interoperability ensures 
we can train and fight alongside our allies and partners more 
effectively and efficiently so we are ready to face any threat 
together. In fiscal year 2018, the Army executed $115 million on 58 
multinational exercises with 95 allies and partners. In fiscal year 
2019, we programmed $165 million for multinational training exercises 
to increase interoperability.
    In Europe, we are leading a multinational battlegroup in Poland as 
part of NATO's Enhanced Forward Presence mission to deter Russian 
aggression. Last summer, our Soldiers participated in Exercise Trident 
Juncture alongside forces from every other NATO ally and two of our 
closest partners, Sweden and Finland. This was the largest NATO 
exercise conducted in recent years, and it demonstrated both the 
Alliance's commitment and collective defense capability. We will 
continue these efforts as we prepare for the division-level Defender 
exercise in 2020, which will exercise the Army's force projection 
capabilities. We also maintain close training and exercise 
relationships with Ukraine and Georgia, key partners in the region for 
promoting peace and security.
    Likewise, in the Indo-Pacific region we are deepening cooperation 
with our allies to protect our national and shared interests. The U.S. 
Army presence in the Republic of Korea and Japan deters North Korean 
aggression and protects U.S. interests. Assigned and rotational forces 
participate in combined training exercises, such as Yama Sakura in 
Japan and Yudh Abhyas with the Indian Army. These exercises strengthen 
our relationships and build interoperability. Furthermore, we are 
testing the Multi- Domain Task Force in exercises through our Pacific 
Pathways program to determine the right capability mix to counter 
Chinese A2AD capabilities. We will continue to use regional training 
and exercises to work with new partners and leverage multi-component 
and inter-service integration. This helps us to expand the competitive 
space and counter Chinese influence throughout the region.
    We are assisting our partners around the world in building military 
capabilities to enhance security. The Army, through its security 
assistance enterprise, supports Combatant Command theater security 
cooperation plans. We will continue to prioritize security assistance 
programs to counter key threats and achieve shared defense objectives 
with our allies and partners.
                            people & values
    The Army's greatest strength is our people--the intelligent, 
adaptable, and professional Soldiers, Civilians, and Families who 
sacrifice for our Nation. We take care of our people by ensuring our 
Soldiers are ready for combat with modern doctrine, equipment, and 
realistic training while simultaneously providing their families with 
the resources they need to thrive at home. Furthermore, our continued 
commitment to the Army Values ensures we foster strong and resilient 
units built on a foundation of trust.
    Comprehensive reform of the Army's personnel management system is a 
top initiative for 2019. To remain the most lethal ground combat force 
in the world, we must continue to attract, develop, and retain the best 
people our Nation has to offer. A competitive labor market for 
America's most highly skilled talent complicates this effort. We thank 
Congress for the Defense Officer Personnel Management Act (DOPMA) 
reforms and additional authorities in the fiscal year 2019 NDAA, and we 
will incorporate these into our new Talent Management Strategy. We are 
moving the Army towards a market- based assignment process with more 
flexible career models along with updates to our promotion system and 
retention incentives.
    The Army faced significant challenges in meeting our fiscal year 
2018 recruiting goals, however, we remain committed to quality over 
quantity. Despite these challenges, we recruited over 70,000 new 
Soldiers into our ranks, the most in any single year since 2010. To 
meet our fiscal year 2019 recruiting goals, we changed our approach to 
increase the pool of qualified applicants so we can attract the best 
talent and improve diversity in our ranks. We restructured our 
accessions enterprise to ensure unity of effort across the Army, manned 
our recruiter positions at 100 percent, realigned resources to increase 
our recruiting capacity, and improved our use of technology. 
Additionally, we centered this recruiting initiative in 22 major 
metropolitan areas across the Nation to expand our reach using micro-
targeted web advertising and local marketing. This revised strategy 
expands recruiting across the Total Army to increase awareness of the 
opportunities for service and to better connect the Army to the 
American people.
    Taking care of Army families remains a top priority, and we are 
taking steps to improve quality of life programs across our 
installations. This year we increased staffing rates at Army child care 
centers, and we are implementing new policies to improve spouse 
employment opportunities. Given recent reports of deficient conditions 
in some of our family housing, the Army has taken immediate action to 
ensure we are providing safe, high quality family housing. We are 
visiting all Army housing and inspecting all barracks to identify 
health, life, and safety issues that exist. We will work with the 
Residential Communities Initiatives (RCI) companies to remediate these 
issues immediately, and over the long term, to improve work order 
resolution, customer satisfaction, and communication with residents. We 
are also reviewing and standardizing partnership agreements and 
incentive structures to ensure we hold the RCI companies accountable 
for providing quality housing. The Army is fully committed to providing 
a safe and secure environment on all of our installations where our 
Soldiers and Families can thrive.
    The Army Values form the bedrock of our profession and guide us in 
all that we do. The Army's Senior Leaders have asked everyone to 
recommit themselves to these Values, and we demand that every member of 
our Army team treat each other with dignity and respect. Across the 
Total Army, we continue to focus on eradicating sexual harassment and 
sexual assault from our ranks. Over the past several years, we have 
placed a high priority on our prevention efforts, and the Army will 
continue to improve the effectiveness of our prevention efforts moving 
forward. This starts by ensuring that the perpetrators of sexual 
assaults are held accountable and that the victims are protected 
without fear of retribution. Additionally, we are reinforcing leader 
responsibility for building a climate of trust and professionalism that 
emphasizes the Army Values. We are taking a similar approach with other 
essential programs including Equal Opportunity, Suicide Prevention, 
Alcohol and Drug Abuse Prevention, and Resilience.
                               conclusion
    The Army mission remains constant: to deploy, fight, and win our 
Nation's wars by providing ready, prompt, and sustained land dominance 
by Army forces across the full spectrum of conflict as part of the 
Joint Force. Our Army is ready today to win in the unforgiving crucible 
of combat. We are supporting the National Defense Strategy and 
expanding the competitive space by increasing our lethality through our 
modernization effort, strengthening American alliances through combined 
operations and training, and reforming our business practices to be the 
best stewards of the resources Congress has provided. The Army thanks 
Congress and the American people for their continued strong support, 
which enables our ability to accomplish our mission. By providing 
predictable, adequate, sustained, and timely funding, Congress will 
ensure America's Army remains the most capable and lethal ground combat 
force in the world.

    Senator Shelby. Thank you, General.
    Secretary Esper, the 2020 budget request and the new Future 
Years Defense Plan proposes to eliminate, as I understand it, 
93 programs and to reduce or delay 93 more. It is my 
understanding that the Army has realigned $33 billion to its 
modernization priorities compared to the previous budget--
rather submission.

                         BUDGET REVIEW PROCESS

    Can you, here this morning, shed some light on the budget 
review process and, specifically, sir, how the underlying 
assumption and methods for choosing programs for truncation or 
elimination has occurred?
    Secretary Esper. Yes, sir. The process began about this 
time last year in the few months prior to the submission we 
have to make to OSD (Office of the Secretary of Defense) in 
June, and it was driven by the National Defense Strategy. It 
was driven by the guidance given to us by Secretary Mattis, and 
it was driven by our own Army Vision, which I shared with you 
earlier.
    As the Chief and I began the process to review the budget 
submission, we realized that there was insufficient money in 
the budget, as it had been planned by the staff, in order to 
fund all of our modernization priorities. At that point, we 
decided that we were going to turn the table, if you will, and 
begin with priority number one and work our way all the way 
through to priority end.
    And we basically began filling up programs in that manner. 
As we looked at each existing program, we asked ourself, ``Is 
this program more or less important than a future capability we 
want to build?'' In other cases, we asked ourselves, ``Are we 
building too much of a capability?''
    We found also that in some cases we were having--we were 
upgrading things that really did not justify the return on 
investment. So we found a number of things throughout the 
process that caused us to either eliminate, reduce, or delay 
the builds, and that process is under way right now as we look 
at next year's budget and beyond.
    It took us over nearly 50 hours, session after session, and 
it did not just involve the equipping budget, but we also 
looked at the training, the manning, the installations budgets 
as well to make sure we get every money, all the reform we 
could out of our existing budgets.
    Senator Shelby. Did any of this have an impact on readiness 
at the moment?
    Secretary Esper. On current readiness, Mr. Chairman? No, 
sir. But will have a dramatic impact on future readiness.
    Senator Shelby. In the future. Yes.
    Secretary Esper. Dramatic.
    Senator Shelby. General, does the fiscal year 2020 budget 
fully fund the 31 CFT programs?
    General Milley. I believe it does, and I believe we have 
done a very, very good job in ensuring that.
    Senator Shelby. Okay.
    Secretary, the new Army Futures Command has assumed a 
leadership role over research development in engineering, 
fiscal control of the science and technology budget, as well as 
oversight of the requirements development process. Some people 
have raised concerns over the diminished role of the Assistant 
Secretary of the Army for Acquisition, Logistics, and 
Technology under the new structure.

                           CIVILIAN OVERSIGHT

    How will the Army ensure, sir that the proper checks and 
balances are in place so that appropriate civilian oversight is 
exercised when it comes to resourcing, acquisition, and 
technology development here? I know that is a mouthful.
    Secretary Esper. No, sir. It is a very good question.
    So, at the end of the day, I am responsible for 
acquisition.
    Senator Shelby. Okay.
    Secretary Esper. And I delegate those authorities to Dr. 
Jette, the head of Army Acquisition, Logistics, and Technology. 
We worked out a very clear directive in terms of the 
responsibilities as we stood up Army Futures Command 
collaboratively with General Murray, who runs Futures Command, 
Dr. Jette, and their teams. Dr. Jette remains the chief 
scientist, the chief technology officer. He remains responsible 
for a number of things.
    I think what you are finding, though, is a much better 
connectivity now between our acquisitions side and our 
requirements side, and that has always been a primary cause of 
failed or failing programs in the past. But now we have much 
greater alignment. There is an integration actually between the 
organizations themselves and far, far fewer lines of 
bureaucracy between those two organizations and me and chief.
    We review programs every week, and we do them side by side 
with General Murray and Dr. Jette.

                        DETER NEAR-PEER THREATS

    Senator Shelby. General Milley, I propose this, my last 
question, to you. Part of the Army's efforts to deter near-peer 
threats is to focus on strengthening alliances and partnerships 
in certain regions of the world as a counterweight to our 
adversaries' increasing influence.
    One way to do this is through more large-scale exercises, 
as you know you have been doing, with the Army's budget. Can 
you describe here in this setting today some of the planned 
exercises--not all, I am sure--such as Pacific Pathways, 
Defender Pacific, and why they are important?
    General Milley. Thank you, Chairman.
    Just briefly, the alliance structure that has been built up 
over seven decades by the United States and our allies and 
partners around the world is critical to maintaining the peace, 
the stability of the world order, and preventing great power 
war, and we are very fortunate that we have a lot of very good 
friends and allies throughout the region.
    Just the other night, we hosted a reception, and we had, 
roughly speaking, 101 allied and partner nations come in to 
that reception. That is over 50 percent of the United Nations. 
That is a representative sample of the friends and allies we 
have around the world.
    I do not believe that neither Russia nor China nor many 
other countries could hold a reception and have 101 
representatives show up that are friends and allies throughout 
the world.
    So the alliance structure is important to the United 
States, and we know that. And it is relative to both regions 
and globally.
    The exercise program, engagement programs that we have are 
critical to that. In the Pacific, we have got about 19 
exercises that are being funded in the fiscal year 2020 budget 
request for I think--I want to say it is about 3 or $400 
million for exercises in just the Pacific.
    There is a series of exercises analogous to that in Europe. 
The combined effect of those exercises demonstrate a resolve 
and will. They represent assurance to our allies and partners 
that will be there in a crisis, and it certainly deters our 
opponents.
    Senator Shelby. Also contributes to readiness and on a 
large----
    General Milley. It absolutely contributes to readiness. 
That is correct, Chairman.
    Senator Shelby. Senator Durbin.
    Senator Durbin. Thanks, Mr. Chairman.

                             MODERNIZATION

    I would like to ask a question or two about modernization. 
We talked about this in my office yesterday.
    Back in 2011, the Army commissioned an internal acquisition 
review, which made recommendations on changing the Army's 
procurement process after the Army had canceled 22 programs 
over the previous 10 years at a cost to American taxpayers of 
$3 billion.
    One particular program, which I have been following and 
talking to both of you about for a long time, is the WIN-T 
program. This was supposed to be a communications network for 
our Army that would be modern, protect them, and make sure that 
we conquered our enemy in battle.
    We have had this program, the WIN program, under way for 
more than 10 years, and now it is being terminated, at a cost 
to taxpayers of $6 billion.
    While we were drawing up specs and going through the Army 
procurement process, America was changing every single day. The 
communications that we all rely on in our pockets were keeping 
up with these changes; the Army was not. Now we are going to 
reinvent another communications network.
    So I look at this with some skepticism. I started off by 
asking why does it cost us so much more to protect this Nation 
than other countries, and part of it, frankly, comes down to 
waste, just our own inability to spend dollars effectively.
    The Army record, which we saw reported on in 2011, is not 
one that we want to repeat. What can you say about your 
generation of leadership, Mr. Secretary and General Milley that 
can give a guarantee to American taxpayers and to our soldiers 
and our families that we will not continue to make these 
expensive mistakes?
    Secretary Esper. Senator, I will take first stab at this. I 
think with regard to the program WIN-T--the Chief knows this 
better than I do, but the WIN-T was developed at a point in 
time when the Army was fighting in Iraq and Afghanistan out of 
stationary bases, with no--with an enemy without the capability 
to do damage to the systems, if you will. I think after a 
series of studies and the National Defense Strategy, the Army 
decided on a move away from WIN-T into a more mobile, a more 
reliable, and a more capable system that could deal with 
Russian and Chinese threats.
    All the funding that was invested in WIN-T did not go to 
waste. We are still using and will use for many, many years all 
the systems developed.
    But what we are doing now is exactly what you said. Because 
commercial technology in this world, in this environment, will 
continue to develop at a pace faster than what we can develop 
within the military, we had to procure much, much more from the 
civilian sector.
    And that is why the network, which is one of our top six 
priorities, is aggressively working on that, as how do we get 
smaller servers that we can fit in our vehicles and our command 
posts, that is happening right now. How are we working to 
develop more tactical radios, that is under way right now.
    I see a future where we are constantly changing systems 
more through software than hardware every couple years or so. 
How are we doing that? We talked about the reorganization of 
the Army enterprise underneath Futures Command, which is 
removing layers of bureaucracy. We took lessons from the 
Decker-Wagner report, which was profiled up here on the Hill 
years ago. We have tried to take into consideration to make all 
the reforms that you have heard about for years to make sure we 
prototype instead of buy clean sheets of paper, that we test 
things before we actually procure them. All the lessons learned 
from the past is what we are trying to adopt as we go forward, 
and we are doing that now with systems that we have under way.
    Senator Durbin. If you find that there is just something 
fundamentally flawed in our procurement process that makes this 
harder, if not impossible, that is our job, is it not, to 
change the law, if necessary, so that you can procure things on 
a timely basis that bring the best technology and the best 
ideas to the battlefield as quickly as possible?
    Secretary Esper. Absolutely, Senator. And the Congress has 
given us some great authorities in the past few years, like 
Section 804, which allows us to do mid-tier prototyping, and 
other authorities to kind of cut through the red tape. That is 
the biggest thing you hear.
    The Chief and I meet with CEOs all the time. It is red 
tape. It is lack of speed, and for us culturally, what we are 
trying to move away from is a culture of risk aversion. If we 
are going to fail, we want fail early and fail cheaply, but we 
want to experiment and get prototypes out there so we are not 
spending billions of dollars in 10 or 15 years on, again, 
PowerPoint designs.

                           BORDER ACTIVITIES

    Senator Durbin. So let me ask this question. Last year, you 
could not have anticipated that the President would ask for the 
dispatching of National Guard and regular Army to the border. 
We think the costs so far this year will be in the neighborhood 
of $350 million. None of that was expected or anticipated in 
last year's appropriation request.
    The President has now taken away a billion dollars and 
reprogramming funds from the Army for his wall. So how are you 
going to pay for the $350 million for border activities that 
were not anticipated?
    Secretary Esper. The fiscal year 2019 funding that you 
generously approved and on time was very, very helpful to our 
readiness and modernization. So the money that came out for 
that military-personnel wedge that will not affect our plans in 
terms of readiness and modernization.
    Going forward with regard to funding that we have--we have 
to assess that and figure out how we are going to pay for that. 
Our comptroller is working up those numbers, and we would have 
to come back to Congress to do a programming into those 
accounts.
    Senator Durbin. But used to come to reprogramming requests 
to us and ask for our consent. What I heard the Secretary of 
Defense say the other day at a breakfast was now we are going 
to get notice of reprogramming rather than congressional 
consent for reprogramming. Is that your understanding?
    Secretary Esper. Senator, I am not aware of what he said 
the other day with regard to seeking--providing notification 
rather than consent.
    Senator Durbin. Do you still believe that we will be asked 
as Congress to consent to reprogramming for this purpose?
    Secretary Esper. I cannot speak for him on that.
    Senator Durbin. Thank you.
    Senator Shelby. Senator Alexander.
    Senator Alexander. Thank you, Mr. Secretary and General. 
Thank you for being here, and thank you for serving our 
country.

                     MILITARY SPOUSES AND READINESS

    Let us talk about military spouses. If spouses cannot get 
jobs, it affects readiness. It affects a member's decision 
about whether to stay in the Army, and one survey shows the 
obvious, which is that two-thirds of spouses state that 
frequent moving causes them to quit or change a job. Another 
study showed that underemployment of military spouses is as 
high as 35 or 40 percent.
    Eight or 10 years ago, when General Petraeus was at Fort 
Campbell, we worked with Holly Petraeus, when I was a new 
Senator, on some of those issues.
    One of the solutions was to get States to work together to 
eliminate some of the barriers that frequently moving families 
have when spouses apply for jobs. It does not help much if 3 
months before you are about to transfer, the spouse gets the 
job.
    But, Mr. Secretary, Senator Blackburn and I met with you in 
your office, and you expressed your concern about this issue 
and said it is even hard for you when hiring spouses for 
Federal jobs.
    So my question is, Is there not some sort of fast track at 
least for some jobs, like child care on a military base----
    Secretary Esper. Yes, sir.
    Senator Alexander [continuing]. Where a spouse could be 
hired quickly, or is there not some initiative that you could 
take with governors who may not be as aware of this as they 
should be--governors frequently change jobs--and in their 
States create some fast tracks for military spouses in there? 
What can you do about this?
    Secretary Esper. Yes, sir. This is a very personal issue 
for me. During my time on active duty, my wife could not get a 
job when we were at Fort Benning or in Italy because of, 
frankly, discrimination against Army spouses at the time, and 
so as I have traveled with the Army--and I have been to Fort 
Campbell and JBLM and Schofield Barracks and talked to 
spouses--two issues that come up over and over are spousal 
hiring and child care. And they are related.
    I think our spouses are highly qualified and underemployed, 
and so the Army has taken about a dozen or two initiatives to 
do this. I have now sent out directives that allow for--after 
you get your FBI background check for a child care center, you 
can do on-site supervision of children. We have worked with----
    Senator Alexander. How long will that take?
    Secretary Esper. That should take now less than 3 weeks for 
hiring.
    Senator Alexander. So I move to Fort Campbell. I apply to 
work at the childcare center there, and within a month, I might 
be able to start work?
    Secretary Esper. Yes, sir. And even better, what we have 
done is we have instituted a system where we have--it is called 
the Child and Youth Services Employment Tool. So once you get 
your background check, rather than every time you go to a new 
assignment, a new installation, and going through the check 
again, we have your name in a database. We will hold it for at 
least 5 years, and you can seamlessly move from base to base to 
base and get hired immediately. That is another thing we are 
doing to make sure we address this problem because it is 
happening out there.
    There are other authorities I am working with DoD on. I 
have talked to some of you about direct hiring authority for 
our spouses.
    Senator Alexander. What do you need for direct hiring 
authority? Does that need to be a part of a piece of 
legislation?
    Secretary Esper. Yes, sir, it would need to be because it 
is currently regulated, I think, under Title 5, and what it 
would do is allow us to skip some processes where you have to 
go do this worldwide competitive source selection.
    Senator Alexander. If we were to give you that kind of 
authority, would you be prepared to implement it?
    Secretary Esper. Oh, absolutely. Yes, sir.
    Senator Alexander. And would it be wise to do it as a pilot 
program, or should it just be blanket authority?
    Secretary Esper. Well, we have direct hiring authority for 
specialties now like engineers and doctors and nurses, where 
they are very critical.
    But, look, taking care of our families and our kids to me 
is very critical as well.
    Senator Alexander. Well, we could expand the kind of direct 
hiring authority you now already have.
    Secretary Esper. Yes, sir.
    Senator Alexander. Is that what you are saying?
    Secretary Esper. Absolutely. The authority I have for 
direct hiring is extended to me by OSD for certain career 
fields. To give it to the Army--actually to all of DoD because 
Navy faces this, the Air Force faces this as well--would allow 
us to quickly hire our spouses the instant----
    Senator Alexander. Would it be appropriate to ask you to 
give us some technical advice about language that would be most 
effective----
    Secretary Esper. Yes, sir.
    Senator Alexander [continuing]. In helping the Army deal 
with this? Because I do not see any need for us to wait.
    Secretary Esper. I would gladly do----
    Senator Alexander. I know Senator Blackburn feels the same 
way. She is a member of the Armed Services Committee, and I 
think between this Committee and that Committee, that in this 
year's appropriations bill or authorization bill that we should 
take some steps to make it easier for the Army to hire spouses 
before you get down to the last 2 months of a tour of duty. And 
I think it is one simple thing we can do to improve readiness.
    So I would welcome a letter from you to Chairman Shelby and 
Ranking Member Durbin and a copy to me and other members----
    Secretary Esper. Yes, sir.
    Senator Alexander  [continuing]. Explaining what our 
options might be.
    Secretary Esper. I will absolutely do that.
    And the other part you mentioned that we are working on is 
engaging with States. Tennessee, for example, as I recall when 
I visited Fort Campbell last year, has a program whereby they 
will recognize a spouse's teaching credential. So if you 
arrive, you could go out and teach immediately either at Fort 
Campbell or in Clarksville, and you do not have to wait for a 
second set of credentials offered by the State.
    Senator Alexander. Well, my time is up, but governors like 
to compete with each other. I think if you went to the 
Governor's Conference in February or in the summer and featured 
a couple of governors doing that, the others would get jealous 
and try to outdo them by the next year, and I would suggest you 
do that.
    Secretary Esper. Yes, sir. Thank you.
    Senator Alexander. Thank you.
    Senator Shelby. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman, Ranking Member 
Durbin, and I want to thank both you, Mr. Secretary and General 
Milley, for being here today. Thank you for your good work and 
the people-that-you-represents good work.
    I kind of want to just kind of get some basic information 
to begin with. Aviation training, what does that include? 
Either one can answer.

                           AVIATION TRAINING

    General Milley. Aviation training is flight hours for the 
pilots and crew, gunnery, navigation, and then for the ground 
crews, it would be things like maintenance.
    Senator Tester. Okay. And what about mobilization? What 
does that include?

                              MOBILIZATION

    General Milley. Mobilization is the mobilization of the 
reserve component, the National Guard----
    Senator Tester. Strictly for reserve? Strictly for reserve?
    General Milley. Yes. The term ``mobilization'' refers to 
the reserve component, the National Guard, and the United 
States Army Reserve and the specific laws that are required in 
order to mobilize and activate under presidential authority.
    Senator Tester. Okay. Right now, what do you have for 
current end strength of active-duty Army?

                           END STRENGTH GOALS

    General Milley. Right now, we are at, as of today--or I 
guess last week--we are at 476, 477 for the regular Army.
    Senator Tester. Okay.
    General Milley. The Guard is less than that----
    Senator Tester. That is fine.
    General Milley [continuing]. And the Army Reserve is less 
than that.
    Senator Tester. That is okay. For fiscal year 2019, you had 
originally requested 487,500.
    General Milley. That is correct.
    Senator Tester. This week, we received an end-strength 
request of 478.
    General Milley. That is correct.
    Senator Tester. I listened to your opening statements, and 
I agree with you. Russia, China, North Korea, Iran. It is a 
dangerous world. Tell me the justification for that reduction.
    General Milley. A couple of things. One is that we missed 
our recruiting goal last year----
    Senator Tester. Yes.
    General Milley [continuing]. By 6,500 in the regular Army 
and another 3,000 in the Guard and Reserve.
    Senator Tester. Yes.
    General Milley. So we assessed ourselves. We did an After 
Action Review. We recognized the recruiting environment that is 
out there. We do not think recruiting at those numbers are 
achievable this year.
    Senator Tester. Okay.
    General Milley. We will want to grow the Army with modest 
growth, so we--through the analysis, we settled on about a 
2,000-soldier increase and modest growth that would go to flesh 
out the existing units in the infrastructure today. So we 
settled on a 2,000-soldier increase as the request to Congress 
in the 2020 budget.
    Senator Tester. And help me out here. Is that traditionally 
what has been done when goals have not been met? You lower your 
goals?
    General Milley. Let me point out also, yes, we missed the 
recruiting goal, but we assessed into the regular Army, 70,000 
soldiers, which is a 10-year high.
    Senator Tester. Oh, sure.
    General Milley. So that was--even though we missed it, we 
set the bar very high is what we did.
    And we were warned, in fairness. Secretary Mattis, then 
Secretary Mattis, he told both me and Secretary Esper that 
those numbers were very high and were going to be hard to 
achieve, but we wanted to set that bar high. And we were not 
willing to compromise any standards for soldiers. So 70,000, 
though, is greater than the Canadian and Australian armies 
combined, so it was a pretty good recruiting year.
    Senator Tester. But we are better than they are.
    General Milley. Roger that.
    Senator Tester. 487,500 was the request.
    General Milley. Yes.
    Senator Tester. Now we are at 478.
    General Milley. That is correct.
    Senator Tester. Basically--and correct me if I am wrong--
about zero growth. I mean, you got people that are retiring and 
people you brought in, but overall end strength is about zero 
growth, correct?
    General Milley. No.
    Secretary Esper. No, sir.
    General Milley. It should be 2,000 more.
    Senator Tester. 2,000.
    General Milley. Per year.
    Senator Tester. That is fine.
    General Milley. Yes.
    Secretary Esper. The other thing that you do not see in 
here is our organizational changes that we are making that will 
push more soldiers out into the combat units.
    Senator Tester. Okay. So what is the end strength? What 
should the end strength be 5 years from now?
    Secretary Esper. Our goal is to be above 500,000 by 2028. 
We will have a more certain number in the next year or so once 
we--our Multi-Domain Operations is war game through iterations. 
I suspect it will be well above 500,000, but I cannot tell you 
what that is right now. But we know we need to be above 
500,000.

                          UNFUNDED PRIORITIES

    Senator Tester. Okay. Very quickly, you talked about 
initially what the aviation training was and what mobilization 
was. These are unfunded priorities for the Army.
    General Milley. No.
    Secretary Esper. No, sir. They are funded.
    Senator Tester. They are funded?
    General Milley. They are not fully funded. They are funded. 
So, ideally, for aviation flight hours, as an example, you want 
14.5 hours per pilot per----
    Senator Tester. Right. They underfunded by about--aviation 
training, for example, is underfunded by about $161 million. 
That is what my brain trust tells me.
    General Milley. That is right in the range, yes.
    Senator Tester. And mobilization is underfunded by about 
$127 million, correct?
    General Milley. Yes.
    Senator Tester. Okay. So we are not funding to the level 
that you think you need for aviation training and mobilization 
of the Guard and Reserve.
    So the question I have is, Do you have any ability to push 
back when the President takes a billion dollars out of your 
budget and you have unfunded priorities that are not fully 
funded, or do you just have to do it?
    General Milley. Well--go ahead.
    Secretary Esper. Senator, at the time last fall when we 
realized that we had this military-personnel wedge of a billion 
dollars that we could not fill, we turned it back in, if you 
will, came to the Congress, I think apprised the committees a 
little bit later.
    Senator Tester. Yes.
    Secretary Esper. And at that point in time, we said, 
``Look, our 2019 budget is sufficient for readiness and 
modernization, but if we could keep some of that money, we 
could improve readiness and modernization with this much money.
    Senator Tester. Okay.
    Secretary Esper. And then that goes to OSD, to the Acting 
Secretary, for adjudication.
    Senator Tester. I just want to make a real quick comment 
because I am over time. First of all, thank you for what you 
do. You guys do a hell of a job, okay? I think what we have got 
right now is we have got a President who wants to build a 
southern wall and wants to change the border of our southern 
border and has taken our military readiness to do that.
    We have got to stand up to this, folks, and I am saying as 
Senators--not you, but us--if we do not stand up to this, we 
are going to regret it.
    Thank you.
    Senator Shelby. Senator Moran.
    Senator Moran. Mr. Chairman, thank you.
    Secretary, General, welcome, and thanks for being here.
    First of all, General Milley, I want to extend my 
congratulations to your Vice, General McConville, for his 
nomination to become the next Army Chief of Staff. I know he is 
a key part of your team, and I look forward to working with 
him.
    Secondly, to the Secretary and to you, I want to recognize 
the significant accomplishment of our Army and its partners in 
the anti-ISIS coalition. Four years ago, the Islamic state 
controlled territory larger than the size of Great Britain, and 
as of last week, that no longer exists. There is no territory 
at all.
    To our soldiers, to the Army, and our allies, thank you for 
your efforts and your resiliency.
    I want to make certain I have time to get to a couple of 
topics. So I am just going to raise this I suppose with you, 
General Milley. It is in regard to the Army's stake in what is 
called the ATEAM of the Kansas National Guard, which restores 
tank engines and transmissions. It is an asset to the big Army, 
to the Army Guard and to foreign partners, and there are still 
issues that need to be resolved with the Materials Command and 
the Guard that I need your help to accomplish. And I assume if 
I ask you if you would do that, the answer would be you would 
help me?
    General Milley. Of course, Senator.
    Senator Moran. Thank you. I am glad I am able to predict 
your answers.
    [Laughter.]

               MODERNIZATION AND RESEARCH AND DEVELOPMENT

    Senator Moran. General Milley, it is clear to me that the 
Army is focused on modernization, divesting specific programs 
to reinvest in the Army elsewhere. When we met in my office, we 
talked extensively about how Congress can support those 
endeavors to modernize.
    One of the things that is evident to me is investment in 
research and development, R&D. It is--I think the most cost-
effective and expedient partner in that effort would be 
academia, and I understand that we are working with your staff 
to have General Murray and the Army's Futures Command staff 
visit universities in Kansas in applied research and 
prototyping with that expertise, with applied research and 
prototyping expertise. And I thank you for that cooperation in 
getting General Murray and his team to see what is available, 
to assist in modernization.
    In addition to R&D side of universities, I am also eager to 
learn about the testing of prototypes in the field. We have 
previously discussed the Big Red One soldiers at Fort Riley--
and again, Mr. Secretary, I thank you for being there--their 
ability to conduct complex training exercises right in their 
back yard as well as in Europe alongside our NATO allies, which 
helps us build interoperability.
    Fort Riley is currently aligned with the Synthetic Training 
Environment Cross-Functional Team. Can you explain your plans 
for testing and developing capabilities in the field, 
particularly as my example of the Big Red One soldiers at Fort 
Riley? General Milley.
    General Milley. Thanks, Senator, for that.
    One comment I would make on Army Futures Command, its 
headquarters is in Austin, Texas, but it has got tentacles 
throughout the entire continent of the United States and 
overseas, with organizations and units that are in hub 
locations. And academic research is one of the key things. So, 
on your first comment, absolutely, we are pursuing that 
throughout a wide variety of universities throughout the United 
States.
    On the second one, with the Synthetic Training Environment, 
we think that the Synthetic Training Environment--it is one of 
the six-plus-two priorities of the Army, and we think that it 
will fundamentally change the level of competence and skills 
and knowledge of soldiers.
    We already do this with astronauts; F-15, F-16, F-35 
pilots. We invest a tremendous amount of money in virtual 
training prior to any pilot ever touching an F-16, for example.
    We do not do the same with infantry rifle squad. So we will 
spend $10 million a year to train a pilot. We will spend 
$10,000 a year to train an infantry squad. Those numbers might 
not be exact, but that is about the weight of effort.
    So we think that a Synthetic Training Environment, a 
virtual training environment which takes soldiers and has an 
experiential base of hitting the sled, not once or twice out on 
a live-fire range, but hundreds, if not thousands of times, so 
where they go through all the muscle memory as individuals, as 
squads and fire teams, but also platoons and companies and 
battalions and brigades.
    If we can do that in a Synthetic Training Environment--we 
believe the technology is there today to do that--then we think 
that we can really raise our game across the board in terms of 
our skills and capability and therefore the readiness of the 
Army.
    So we are putting a lot of investment in it. It is a 
nationwide program. We are working with a variety of industry-
leading experts in developing this, and we think we will be 
able to field it here very, very shortly.
    Senator Moran. I again highlight Fort Riley's capabilities 
along with the intellectual center of the Army, Fort 
Leavenworth, and its proximity.

                             CYBERSECURITY

    We had a report from the Director of Operational Test and 
Evaluations within the Department of Defense in regard to red 
teams, cybersecurity. It was the request of this Committee, and 
it was filed recently. What it indicates is there is a 
significant lack of capability within the Army, within the 
Department of Defense to meet those cyber vulnerabilities.
    I highlight that report for you, and I would ask you, to 
either one or both of you, does the Army plan to grow a cyber 
red team capability through joint partnerships with other 
services?
    Secretary Esper. Senator, we are investing a great deal of 
money into cyber. As you know, we have a cyber MOS. We have a 
cyber officer corps. We have a cyber center down in Georgia. 
So, if anything, I think the Army is leading on cyber, and red 
teaming is a big part of that.
    It is clearly a vulnerability, and when we talk about 
modernization, the capabilities that we are putting into our 
brigades, divisions, and corps, our cyber teams, which is 
unique. And so that is all part and parcel. We are certainly 
going to do that.
    Senator Moran. Thank you.
    Secretary Esper. And, Senator, I know you are out of time, 
but if I can, I just wanted to publicly thank you and 
congratulate you for supporting Senator Dole's promotion to 
colonel. I know it just passed I think yesterday in the House. 
And I had the privilege to know him and I think work with him, 
and so it is just a wonderful gesture. Thank you.
    Senator Moran. Mr. Secretary, thank you for saying that, 
and it is a great opportunity for all of Congress to honor the 
military service of now Colonel Dole.
    Secretary Esper. Yes, sir.
    Senator Shelby. Senator Schatz.
    Senator Schatz. Thank you, Mr. Chairman, and thank you, 
Secretary and General, for your great work.

                   MILITARY CONSTRUCTION AND THE WALL

    I have a question following up on Senator Durbin's line of 
questioning about military construction and the wall. I have 
actually four or five questions, so let us do this as quick as 
possible.
    You have this list, which is really not a list. It is a 
universe. It is basically anything that is not housing barracks 
or something that is already under way. So it is anything 
fiscal year 2020 and beyond.
    Secretary Esper. That looks like the DoD list. Is that----
    Senator Schatz. Right, right.
    Secretary Esper. Yes, sir.
    Senator Schatz. So the question is, Do you have an internal 
list? Have you started to refine that to prioritize what MilCon 
projects will be cut that were appropriated?
    Secretary Esper. Senator, I have directed the Army staff to 
begin looking at the unobligated list of MilCon projects and to 
start prioritizing them based on readiness and our power 
projection.
    Senator Schatz. Where are you in that process? Because we 
are waiting as though we are not appropriators, as though we 
did not already decide this, as though it is not our 
constitutional obligation to do the prioritization.
    So, at a minimum, it seems to me we should be involved in 
this process, and that it should not be a black box that sort 
of is dropped down on us. Worse than that, you have Senators 
interacting with the Vice President of the United States who 
are saying they are going to vote no on resolution to terminate 
the emergency on the basis of reassurance that they have 
received that their State will be held harmless.
    So, at a minimum, I think this Committee deserves to know 
what in the world is happening within each of the service 
branches.
    Secretary Esper. Yes. So, Senator, I instructed the staff 
to expedite this because I do not know when OSD may call upon 
the Army and the other services to forward their lists, and at 
that time, of course, OSD is going to prioritize them based on 
whatever methodology they use. I want to stay ahead of that 
curve.
    Senator Schatz. And you will inform the Committee and 
consult with the Committee on----
    Secretary Esper. On our prioritization list?
    Senator Schatz. Yes.
    Secretary Esper. Sir, Senator, if I am permitted to by OSD, 
I certainly will.
    Senator Schatz. If you are permitted to?
    Secretary Esper. Yes, sir.
    Senator Schatz. And you think that is a legal determination 
that they have to make or a political determination?
    Secretary Esper. I do not know. I would have to come back 
with you and find out what guidance I would get from 
Assistant--from Acting Secretary Shanahan.
    Senator Schatz. Okay. And you know that I know this is not 
your--a problem if your making, but I will also tell you that 
this frays our relationship. This makes it very difficult for 
you to come to us and say, ``All of these needs are high 
priority. They must be funded for readiness and other things 
and for the good of the United States Army when, as it turns 
out, there seems to be a billion dollars left over. I 
understand not meeting ambitious recruiting goals, but then to 
use that money for a wall as opposed to the U.S. Army's 
Pacific's----
    Secretary Esper. Right.
    Senator Schatz [continuing]. Priorities that they just 
submitted to big Army, right, during the midyear review, and 
they are saying, ``We need something in Korea. We need 
something for the Strykers in Alaska. We need a bunch of things 
in Hawaii. We need stuff throughout the region,'' and instead, 
that pot of money is going to be used for the wall.
    I understand we like to play nicely with each other on this 
Committee, and I think that is a good tradition. And I am not 
trying to interfere with that tradition, but the reason that we 
play nicely is because of mutual trust and transparency and an 
understanding of our constitutional roles.
    Secretary Esper. Yes, sir.
    Senator Schatz. And I do not feel that it is working right 
now.
    So the question I have is, Did you provide advice either to 
the Secretary's office or anyone in the White House or anywhere 
else contrary to what is happening right now? Did you say, 
``Hey, look, this is actually going to harm the United States 
Army, we recommend you not do that''?
    Secretary Esper. Senator, the advice I provided early on 
was that we should protect barracks, dormitories, and housing; 
and then from there, we should prioritize based on readiness. 
And I have, of course, expanded that in my own staff, 
recognizing the installations involved. That we should also 
prioritize the ability to project power.
    Senator Schatz. Right. So then you get from the 20-odd 
billion to the 10 billion based on that advice, but it sounds 
like you are okay with some cuts to the MilCon schedule. I 
guess that is the problem I have, which is to say that I think 
as the Army Secretary, you have to say, ``I am not okay with 
any cuts because I represented to this Committee that every 
single thing that was funded was absolutely necessary,'' and I 
do not think it is improper for you to stand up and say, 
``Everything remains necessary, and there is nothing on this 
list that is less important than the border wall.'' I would 
like you to comment on that.
    Secretary Esper. Well, Senator, my perspective is the Army. 
Clearly, Acting Secretary Shanahan has a broader set of 
perspectives and requirements he needs to make, and obviously, 
the White House does too. Again, I will offer my 
recommendations to the Acting Secretary.
    But I also have to look at that list. There is a process, 
and the process is the Army staff is going to provide, he and 
I, a list of recommendations, and we will look at that list and 
determine the prioritization and then make our advice to the 
Acting Secretary from there.
    Senator Schatz. Thank you.
    Senator Shelby. Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman, and thank you all 
for being here.
    Mr. Secretary, we appreciated you being in Texas at Red 
River, and it is kind of crazy for the Arkansas guy to be 
saying we appreciate you being in Texas. But, as you know, 
about 20 percent of the workforce, it being right on the 
border, comes from Arkansas. That facility does a tremendous 
job, and I just think it is so important. And I congratulate 
you on getting out, seeing things firsthand. The community was 
very receptive to you being there, and again, those are just 
important things to do. I think they were able to tell a great 
story about the mission that they are doing and things like 
that.
    Secretary Esper. Thank you. I had a great trip. I both 
enjoy and it is my duty to go around and see our arsenals and 
our depots and understand what that great workforce does 
wherever it is, and I have been able to visit a number of them 
in the 18 months or so that I have been on the job.
    Senator Boozman. We appreciate that, and I agree with you. 
I think it is your duty, and yet sometimes things do not get 
done. So the fact that you are modeling that is really 
important.
    General Milley, we appreciate you so, so very much. You are 
always here to give very frank answers as to what is going on 
to make the Army the most efficient fighting force as it is and 
all of the things that go along.
    Also, I want to congratulate you on your nomination to be 
Chairman of the Joint Chiefs of Staff. That is something that I 
know that the average soldier is very, very excited about, 
having somebody like you in that position.

                    CHEMICAL AND BIOLOGICAL WEAPONS

    In regard to the Pine Bluff Arsenal in Arkansas, as you 
know, it is the only active chemical defense arsenal in the 
Department of Defense. Many of the items produced at the Pine 
Bluff Arsenal are not available in the private sector.
    In your fiscal year 2020 budget submission, you have 
recommended eliminating 93 programs and reducing another 93 
programs to help you focus on the six modernization priorities.
    One of the programs that is being reduced is the Chemical 
and Biological Protective Shelter that allows surgical teams 
and medical companies to continue lifesaving work in 
environments that have been contaminated by chemical or 
biological weapons.
    The National Security Strategy and the National Defense 
Strategy indicated a growing threat from adversaries equipped 
with chem-bio weapons. DoD has returned to the posture of 
routinely exercising and training in chemical gear.
    So, with all of that, I guess the question is, given the 
absence of a commercial source for the chem-bio protective 
shelters and the sole capability to produce them just at Pine 
Bluff, can you talk about how you decided to make a reduction 
in the program?
    And then, also, is not the work done at the Pine Bluff 
Arsenal precisely the kind of core capability we should be 
intent in retaining?
    General Milley. With respect to the----
    Senator Boozman. I have got some more easy questions.
    General Milley. Thank you, Senator. I appreciate easy 
questions.
    With respect to the specific chem-bio capabilities and the 
93 programs that were cut, eliminated, and 93 others that were 
reduced, a lot of due diligence, a lot of rigor went into every 
one of those.
    But we recognize that every single program in and of its 
own self, it has its own merits, but everything is relative. 
And it is relative to other programs and a set of priorities 
that the Secretary and I determined that this program is more 
important than that program, and we made some very, very 
difficult and challenging decisions over some very intense--I 
will not quite call it combative, but I will call it intense--
meetings amongst all kinds of people within the Army that 
fought very, very hard for various programs.
    But at the end of the day, we are asking for $182 billion, 
which we think is a considerable amount of money to the 
taxpayer, and we are determined to fund those priorities which 
we think will lead to the greatest readiness of the force, both 
now and in the future for modernization.
    With respect to chem-bio, we did an estimate, and I advised 
the Secretary that I think that--as best military advice, that 
I think we have sufficient inventory of a variety of chem-bio 
capabilities within the Army right this minute that we can 
afford to take a little bit of risk there. We recognize it is a 
risk, but is it acceptable or not? I think it is, given the 
current situation globally.
    Five, 10 years from now, as other technologies develop and 
other chem-bio things come online, we may probably--we probably 
will have to reassess that, but for right now, I think we have 
sufficient inventory to handle the risk at hand and, hence, 
made a recommendation that it be trimmed back or cut.
    Senator Boozman. We appreciate that.
    Again, I wish you would look at that in the sense that that 
seems to be something that is talked about a lot right now in 
various briefings and this and that and really is something 
that certainly has to do with our capabilities in a variety of 
different ways.
    Another issue I would like to talk about--well, again, my 
time is up, so----
    Senator Shelby. You can go right ahead.
    Senator Boozman. Well, as you know, fiscal year 2019, NDAA 
(National Defense Authorization Act) directed the Army to field 
two batteries of interim cruise missiles, defense capability in 
2020, and two additional batteries in 2023. The Army recently 
announced that it intends to purchase the Iron Dome as part of 
that.

                               IRON DOME

    Army's fiscal year 2020 budget includes $84 million for 
Iron Dome. How does that fit into your acquisition strategy to 
meet the fiscal year 2020 requirement? And if necessary funding 
is provided, will the first two batteries be fully capable to 
deploy and support combatant command air and missile defense 
requirements in 2020 as required in the----
    General Milley. We identified six major priorities, bins, 
if you will, for different programs that fall underneath them.
    One of those six is integrated air and missile defense. We 
know that one of the gaps we have relative to potential great 
powers is our ability to acquire, to see, and then to engage 
and shoot down rotary wing, fixed wing, and missiles coming in 
at our friendly forces. But we do have Patriot. We do have 
THAAD (Terminal High Altitude Area Defense), but there are 
significant gaps there which I do not want to necessarily 
discuss in a public forum.
    Congress recognized that as well, and Congress directed 
that we go ahead and acquire two batteries of Iron Dome as an 
interim fix. We are complying with that. We are coming back to 
the Congress and asking for a reprogramming in order to fund 
the acquisition of those two batteries of Iron Dome.
    Iron Dome is a good system. I went over to Israel and 
visited that, and I saw a demonstration of proof of principles. 
It is a very, very good system. It has a very good combat 
record as well as in a test and prototype version. So we are 
moving out and buying that.
    We have other programs that are in the prototyping, IFPC 
and some other things that are going to provide us, the Army, 
provide the Nation with an integrated air-missile defense for 
ground formations probably by the mid-'20s, but we will have 
Iron Dome online by the end of fiscal year 2020.
    Senator Shelby. Senator Baldwin.
    Senator Baldwin. Thank you, Mr. Chairman, and thank you, 
Mr. Secretary and General Milley, for your hard and diligent 
work.
    I am going to start with a line of questions relating to 
the stability of the industrial base that supports our armed 
services.

                   MODERNIZATION OF TACTICAL VEHICLES

    General Milley, I appreciate that you are wrestling with 
conflicting budget priorities. However, I am once again 
concerned that the budget request underfunds the Army's 
modernization strategy for tactical wheeled vehicles, 
specifically for the Family of Medium Tactical Vehicles, FMTV, 
and for the Heavy Expanded Mobility Tactical Truck, or HEMTT, 
RECAP programs.
    The request undercuts the Army's plan to provide stability 
to the industrial base by ignoring the Minimum Sustaining 
Rates, MSR. By Department of Defense definition, the MSR is the 
production rate for each budget year that is necessary to keep 
production lines open, while maintaining a base of responsive 
vendors and suppliers.
    Both the medium and heavy industrial bases, largely within 
the industrial Midwest, but also spanning across the United 
States, they consist of fragile networks of small business 
suppliers who are, I dare to suggest, weary from consecutive 
years of Army risk-taking with tactical wheeled vehicles, the 
threat of budget caps, sequestration, and continuing 
resolutions.
    Still, the budget request zeroes out funding for both HEMTT 
and PLS RECAP programs beyond fiscal year 2020, and the CBT 
program is zeroed out beyond fiscal year 2022.
    So small businesses make up about 62 percent of the 
suppliers that support the FMTV program and about 56 percent of 
the suppliers supporting the heavy RECAP program.
    So with known requirements across all three components for 
the Army for upgraded FMTVs and HEMTTs, how does this funding 
strategy support the critical modernization efforts and provide 
stability to the medium and heavy RECAP industrial bases in the 
form of Minimum Sustaining Rates?
    Secretary Esper. Senator, I will go first. Again, this gets 
down to tough choices. We have compared to, for example, the 
Bradley Fighting Vehicle fleet. The wheeled vehicle fleet is 
relatively young.
    We also know that we--through our process of so-called 
``night court,'' we found that we had more than enough numbers 
of, I believe, both systems. We would have to get back to you 
and give you a more detailed layout in terms of trucks that 
could hold us over well into the future, at least for the next 
few years, and so we made that decision.
    As I have talked to some of the manufacturers--I have met 
twice or so with Oshkosh--I have said what we really need to do 
is think about how do we take the fleet we have and modernize 
in the sense of how do we adapt the vehicles we have now to be 
either semi-autonomous or fully autonomous because that is 
where the Army is going.
    But we are adjusting. What part of this process revealed 
was that we were producing too many of many things, and what we 
are changing now is how we actually equip the fleets, and not 
just for trucks, but for everything we do so that we do not 
procure too much of things. This is something that was told to 
me, as I entered the job, by previous Chiefs of Staff, his 
predecessors, is that the current Army templates tend to 
produce too many of certain things.
    And so we are trying to get back on the mark, and we are 
trying to take programs that, while they have value, compare to 
systems that are now 40 years old. I just cannot look a soldier 
in the eye and say, ``I am going to not modernize your fighting 
vehicle or your long-range artillery because I want to keep 
buying this over here that is newer and in better shape.'' It 
is about how do we make sure that the future readiness of the 
Army is sustained.
    Senator Baldwin. Where do you factor in this idea of having 
an industrial base that is capable of producing in the United 
States of America what the Army needs?
    Secretary Esper. It is very important. We try to do--I try 
to understand the impacts on defense industrial base as we went 
through this process. I need a robust industrial base with 
certainly competition so much as possible too. Again, Oshkosh 
is a great example, where 75 percent of their work is actually 
in the commercial sector. The view was that they will be able 
to adapt and adapt their supply lines, but those are all 
considerations that we have to look at.
    And what we are trying to tell industry these days is there 
is--we have shifted over the FY DP (Future Years Defense 
Program) over $57 billion worth of money into these future 
programs. That is what we are asking all of industry, to 
include the small businesses, those long supply chains. Meet us 
there. That is where the money will be. That is where the money 
is. That is where the next few--several years, decades of the 
future will be because otherwise I just cannot keep building 
the legacy. I need to get to the future.

                       REPROGRAMMING FOR THE WALL

    Senator Baldwin. Mr. Chairman, I note that I am out of 
time. I just wanted to end by associating myself with the 
comments of Senator Schatz regarding the reprogramming of 
dollars for the wall. I am very concerned about the priorities 
that this Subcommittee of Appropriations as well as the MilCon/
VA Subcommittee, on which I also sit, priorities that were 
reflected in our work, being now reallocated.
    We do have to have a trust relationship, and this is--this 
is a challenge.
    Senator Shelby. Thank you.
    Senator Murkowski.
    Senator Murkowski. Thank you, Mr. Chairman.
    Gentlemen, welcome. Thank you both for your leadership in 
so many different ways.
    General Milley, I want to acknowledge and express my 
appreciation to you particularly for your support of U.S. Army 
in Alaska. You were key, truly integral to the decision to 
protect our 4th Airborne Brigade Combat Team of the 25th 
Infantry Division when they were looking at force reduction 
several years ago. Greatly appreciated.
    I also appreciate the efforts in building the aviation 
capacity there at Fort Wainwright with the Apache helicopter 
and the Gray Eagle UAS to Alaska. It truly does speak, as you 
know, to the strategic importance of Alaska. We have had many 
opportunities to discuss that with both of you, and we thank 
you for that.

                    ASSETS IN ALASKA AND THE ARCTIC

    I want to talk a little bit, and not surprisingly, about 
the assets in Alaska, the training opportunities that we have, 
the great training opportunities that we host, particularly in 
the cold weather high-altitude training, and just a little more 
discussion about what you foresee as the potential for growth 
of the Army in Alaska specifically.
    I note in the posture statement, you are speaking to a 
strategic environment in which Russia and China may seek to 
advance their interest in places like Europe, the Middle East, 
and Africa, but it does not specifically speak to the role in 
the Arctic.
    I raise this, as I do in many committees, the issue of the 
Arctic more broadly, but when I ask this question, the threats 
to the European facing Arctic, I think are readily apparent.
    But I am more interested in the increase in Russian 
military presence in the Far East and what that might mean for 
defense of Alaska.
    The other thing I would like you to address--and I will 
just let you speak about the Arctic presence--the role of Army, 
Alaska, as it relates to the Artic presence, but also when we 
talk about modernizing the U.S. ability to fight in the Arctic, 
whether it is the need for the new tracked SUSVs or protective 
equipment, I would like you to speak to progress with regards 
to that, whether it is better utilization of the training 
facility at the Black Rapids, at the Northern Warfare Training 
Center there at Black Rapids.

                     SYNTHETIC TRAINING ENVIRONMENT

    I appreciated the conversation that you had with Senator 
Moran about the Synthetic Training Environment and all that 
that can demonstrate to us in terms of training and capacity 
and that repetitive, but I am also reminded, we just finished 
up this 1,100-mile sled dog race. Anyone can--well, not anyone. 
It is challenging to do a sled dog race, but when you are 
dealing with mind-numbing cold and just the monotony of 
terrain, synthetic can be helpful. But if you cannot even pick 
up a tool to communicate or write with because you are dealing 
with a cold situation, that we have not developed the 
protective gear that is adequate.
    So a broad-ranging question about the Arctic, about 
training, and really how we deal with that increased military 
presence in the Far East side and the Alaska defense posture. 
So I throw that to both of you.
    Secretary Esper. So, Senator, if you do not mind, I will 
take the second question, and then I will let the Chief put on 
his Joint Chiefs hat and speak to the first one on strategy.
    I was in Alaska for several days last summer and----
    Senator Murkowski. Appreciated. Thank you.
    Secretary Esper [continuing]. Had a great visit, and I 
visited all the installations and had a chance to go to the 
Cold Regions Test Center there and be put in the freezer. And 
it is very clear that our soldiers need to know how to operate 
in a cold weather environment.
    It is just like you said. It is not just how do you 
operate, but it is how do you survive. And it is the simple 
things: how do you eat, how do you drink, how do you keep 
yourself warm.
    But I also got a good lesson about how you have to think 
about the lubrication of your vehicles, the oils you use, and 
all those things that are critical to fighting and winning in 
an Arctic environment. So it is clearly something we need to 
preserve. We also need--the Northern Warfare Training Center 
does a great job in terms of operating in Arctic on glaciers, 
et cetera, and so I am very pleased with what I saw up there 
and the investments we have made with both the Airborne and the 
Stryker Brigade that is up there.
    So there is more we could talk about that, but I want to 
kick it over to the Chief since we are tight on time.
    Senator Murkowski. I do appreciate you going there and 
seeing firsthand because I think that that really----
    Secretary Esper. It is a great lesson. It absolutely is. It 
is very, very different.
    Senator Murkowski. General.
    General Milley. Thanks, Senator.
    Just very briefly, the Arctic is a key area, and if we left 
it out of our statement, that was an oversight on my part.
    I think I did mention in the opening oral statement, Arctic 
is key. Both Russia and China are expanding their military 
capabilities and commercial capabilities, by the way, in the 
Arctic. And there is no question that the sea lines of 
communications relative to the Arctic, that the natural 
resources in the Arctic are important to the United States from 
a national security standpoint.
    The Department of Defense does have an Arctic strategy, and 
we are part of that. U.S. Army Pacific and U.S. Army Alaska 
specifically are all part of that, as you well know. We intend 
to sustain that effort, and we consider it a very important 
area for the national security of the United States.
    Senator Murkowski. Well, I appreciate the joint training 
exercises that have been conducted with other countries, the 
Trident exercise. These, again, contribute to the readiness and 
working with our allies.
    Thank you, Mr. Chairman.
    Thank you, gentlemen.
    Senator Shelby. Senator Murray.
    Senator Murray. Thank you very much, Mr. Chairman.
    Secretary Esper, General Milley, I understand the Army is 
planning to cut $33 million from Army childcare in fiscal year 
2020 and that more cuts may be coming, even more than that, in 
the following year.

                             ARMY CHILDCARE

    These cuts are coming when childcare staff are dealing with 
more and more behavioral problems, when some parents, even with 
the dual military families who are on the top tier 
prioritization, are waiting a year or more now on wait-lists.
    I have heard from parents who spent thousands of dollars on 
childcare in town because they could not get it or were just on 
wait-lists for day cares close to them or where they worked.
    I have heard from parents who could have been forced to--
who have been actually forced to even get out of the service 
because they could not get off a waiting list and into 
childcare. I have heard so many challenges.
    So could you both please tell me, yes or no? Do you think 
access to childcare is a readiness or retention issue?
    Secretary Esper. Yes, ma'am, it is, and I would like to 
give you a broader answer with regard to what you are referring 
to, if I may.
    Senator Murray. So maybe you could explain to me, then, why 
we are making cuts to this program.
    Secretary Esper. Sure. So no cuts have been made to the 
childcare for our soldiers. In fact, you have hit the nail on 
the head. It is access that we are wrestling with.
    I am looking at a number of policy changes. First and 
foremost is to institute the prioritization laid out by DoD----
    Senator Murray. I heard you----
    Secretary Esper [continuing]. So that military families go 
to the top of the line. In many cases, that is not what has 
been happening, and so there is a policy change that has to 
happen there.
    A big chunk of that cut was a reform measure where we saw 
that parents were--we had a redundant management system in 
place. So rather than going to the day care center, if you 
will, to sign up, you went to a separate building with separate 
people. We got rid of that, and so now to sign up for day care, 
for example, you go just to the day care center. And that saved 
about half of that money right there.
    And then we are paying an exceptional amount of money, for 
example, for DA civilians, many of whom are very high earners, 
and I think that is--what I want to do is look at transitioning 
more to hourly day care for our families. As I have traveled 
around the Army in the past several months, I am hearing more 
and more as we have improved the access to our military 
families, now I am starting to hear more and more about the 
need for hourly day care. So I want to look at moving money 
within the account to provide our families with the hourly day 
care that they need.
    Senator Murray. My understanding is that many of these 
facilities do not have the space, and that they need to expand 
further. And I have done a lot of work looking at this, and we 
have got to increase capacity.
    Secretary Esper. Right.
    Senator Murray. It is not just a matter of staffing, and we 
need to upgrade and build. Some of these child care facilities 
are in really horrendous shape.
    So I really--I would actually just ask you to look at this, 
and maybe if you could come in and brief my staff on it----
    Secretary Esper. Yes, ma'am.
    Senator Murray [continuing]. We could give you our examples 
because I do think it is a military readiness issue.
    And, General Milley, I would assume----
    Secretary Esper. Before he answers, if I can just say, in 
several of the cases I know, because we review this monthly, 30 
percent of the day care centers are filled up with nonpriority 
personnel, and so if I can work that list down, we can do that.
    And I also want to expand what is called FCC, which is 
Family Child Care provided by family members on base. It is a 
great opportunity, but we need to incentivize that program 
better to expand. And there are some places where we are 
looking at building new capacity as well.
    Senator Murray. General Milley, if you have any comments?
    General Milley. Thanks, Senator. It absolutely is a 
readiness issue. In World War II, about 10 percent of the 
United States Army was married with children. Today, about 60 
percent of the United States Army is married with children, and 
on average, there are two children in a family. So a family of 
four is the norm, the demographic of the United States Army.
    And child care is a readiness issue because we want our 
soldiers to focus on their job, whether it is overseas in a 
combat operation or in a training mission overseas or in CONUS. 
They need to focus on their job, and if they are worried about 
the medical care, good housing, mold in the house, child care 
for their children, education, a safe base, and so on and so 
forth--if they are worried about all of that, then they are not 
focusing on the jobs.
    Senator Murray. Not doing their job.
    General Milley. So it is absolutely a readiness issue. 
There is a direct correlation between that and the readiness of 
the force.
    With respect to the cuts, we did go through the night court 
rigor on all these cuts, and the Secretary and the Army staff 
were absolutely--due diligence was absolutely applied to ensure 
that there were no cuts that impacted soldiers and their 
families. There are cuts that impact others but not soldiers 
and families. That is sort of the bargain that we struck. That 
is where we are at.
    Senator Murray. I would just like to ask you--and if you 
can brief my staff on this because it is counter to what we are 
hearing, and I want to see it in----
    General Milley. Sure.
    Secretary Esper. Absolutely.
    General Milley. Yes.

                          BORDER WALL FUNDING

    Senator Murray. All right. Secretary Esper, earlier this 
week, DoD notified Congress, it is raiding a billion dollars 
intended for paying benefits for servicemembers in order to 
fund the President's border wall.
    We hear so frequently from the services about problems in 
readiness and modernization, and you are right to be concerned. 
And this Committee has worked very hard to help you address 
those problems because at the end of the day, our 
servicemembers are at risk.
    So if this money is truly not needed where it is currently 
budgeted, would this money not be better spent investing in our 
soldiers and families, improving their training or modernizing 
their equipment?
    Secretary Esper. So, Senator, as I said earlier today, that 
$1 billion or so came from the Army personnel account. That we 
could not meet that end strength goal of 487,000. So that was 
allocated to soldiers, frankly, that did not exist.
    We turned that back in to OSD, if you will, and apprised 
the committees that we were going to be doing that. And the 
return of that money came with our recommendations that said 
the fiscal year 2019 budget approved by Congress met our 
readiness and modernization needs; however, we would like to 
keep some of that money to further improve readiness and 
modernization. And that is to your point, as you are just 
saying. There is always more needs and wants than there are 
means, and we could always use that money to do other things.
    Senator Murray. Okay. But I do know you get very limited 
military construction funding. So I expect the Army would not 
have approved the new Confinement Facility at JBLM or the 
Tactical Equipment Maintenance Facility Yakima if they were not 
truly important. So I am extremely concerned to see them on a 
list of potential projects to be raided for this wall.
    And we also finally secured funding for improvements to the 
Yakima Training Center Fire Station, which I hope is no longer 
on that list of cuts, because the current facility at Yakima is 
not in compliance with National Fire Protection Association 
Standards, and it is severely undersized. There is a very 
serious danger in my State, which has suffered from wildfires, 
as you know.
    So I wanted to ask, are any of these projects less 
important to military readiness than building a wall on our 
southern border?
    Secretary Esper. Senator, I have to assess all the projects 
and assess their relative value amongst one another.
    With regard to the question of their value relative to the 
border wall, that is a decision beyond me. As I said earlier, 
my responsibility, to prioritize projects and look at it from 
an Army perspective. The Acting Secretary of Defense has a much 
broader perspective, and the White House has a much broader 
perspective from there. And it is those decisions where they 
can make the tradeoffs, and as decisions are made, we follow 
direction.
    Senator Murray. Well, okay. I understand that.
    I will just say for the record that we are sending a very 
bad message to our military that these projects, which are 
extremely important to their safety, to their readiness, to 
their availability, are less important. And I think we should 
all be standing up and speaking out, Mr. Chairman.
    Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Shelby. Senator Udall indicated he is on his way, 
but he is not here yet. So we will leave the record open for 
any questions.
    Both of you, I want to thank you for appearing before the 
Committee. There might be other questions. A lot of members 
have other conflicts today. Thank you, both of you, very, very 
much, and congratulations to you, General, again.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted to Dr. Mark T. Esper
            Questions Submitted by Senator Susan M. Collins
    Question. On February 1, the U.S. Army awarded an Engineering and 
Manufacturing Design (EMD) contract for the ITEP program to the General 
Electric Company. On February 19, the Advanced Turbine Engine Company 
(ATEC) filed a protest with the General Accountability Office (GAO) on 
the award. Recognizing that DoD cannot comment on the award due to the 
protest, I would ask that you provide for the Committee general 
clarification on the Army's Improved Turbine Engine Program (ITEP). 
Specifically, I ask that you answer the following questions:
    What is the purpose of the ITEP?
    Answer. The purpose of the Improved Turbine Engine Program (ITEP) 
is to design, develop, integrate, test, qualify, and deliver the next 
generation turbo-shaft engine for the Future Attack Reconnaissance 
Aircraft, Black Hawk (H-60), and Apache (AH-64E) helicopters. The ITEP 
is designed to develop an engine with increased power, increased fuel 
efficiency, increased reliability, and that fits in the current engine 
bays of the Black Hawk and Apache aircraft, at similar weight, while 
increasing operational reach and lethality.
    Question. How does ITEP factor into the Army's Future Vertical 
Lift?
    Answer. The ITEP is developing the designated engine for the Army's 
Future Vertical Lift Future Attack Reconnaissance Aircraft (FARA) 
Competitive Prototype.
    Question. Were engine power, engine growth, specific fuel 
consumption, reliability, and maintenance key elements for ITEP? If so, 
how were these elements prioritized?
    Answer. All technical requirements/key elements including engine 
power, engine growth, fuel consumption, reliability and maintenance 
were included in the ITEP System Requirements Document (SRD). The 
System Requirements Document was attached to the ITEP Engineering and 
Manufacturing Design Request for Proposal (RFP) and thoroughly 
evaluated by the Army. All technical requirements/key elements in the 
ITEP Engineering and Manufacturing Design SRD were equally weighted and 
considered.
    Question. What is the status of the Army's turbine engine-
manufacturing industrial base to meet future turbine engine 
requirements?
    Answer. The combat helicopter turbine engine industrial base was 
examined in-depth in 2012, 2016, and twice in 2018 with focus on 
support of the ITEP and the Future Vertical Lift (FVL). Based on these 
examinations, the Army assesses the engine manufacturing industrial 
bases as capable of meeting future turbine requirements.
    Commercial and Military engines are usually very similar in 
configuration, and this commonality typically leads to a stronger 
industrial base since a manufacturer will be supporting both users at 
the same time. These examinations consistently determined that this 
industrial base segment is vital, healthy, and prepared to support 
upcoming and emerging Army aircraft programs.
    Question. Do we have a sufficiently robust industrial base to meet 
future turbine engine?
    Answer. Yes, as provided in the response to the immediate preceding 
question.
    Question. Would the Army consider there to be a long-term risk to 
the warfighter if price is prioritized over performance or capabilities 
during the ITEP program?
    Answer. The Army's Engineering and Manufacturing Design competition 
used the best value approach to manage long term risk to the 
Warfighter, and appropriately weighted price and non-price evaluation 
factors.
                                 ______
                                 
                Questions Submitted by Senator Roy Blunt
    Question. Senator Comment concerning General Leonard Wood Army 
Community Hospital: I want to take a quick moment to thank you for the 
support of an initial $100 million in fiscal year 2018 for construction 
funding for the hospital replacement at Fort Leonard Wood. Another $50 
million has been requested in fiscal year 2020. And almost $250 million 
more will be requested in future years. This project is absolutely 
critical to the Fort and surrounding community. The hospital last 
underwent a major renovation nearly 40 years ago. The hospital serves a 
large population of active duty, retirees, and families, with few 
alternatives military health system providers in the surrounding area. 
Despite the outdated nature of the structure, the care at the hospital 
has remained among the best in the country. It has ranked # 1 in 
outpatient efficiency by the U.S. Army Medical Command. The project has 
repeatedly been deferred year after year so it is a positive 
development to see real funding appropriated in fiscal year 2018 and 
further funding included in the budget request this year. Connected to 
the construction of the hospital is the concern over a potential 
shortage of physicians at hospitals like Fort Leonard Wood.
    For instance, the Fort Leonard Wood hospital has seen a decrease of 
23 percent in authorizations for primary care providers in the last 5 
years. Fort Leonard Wood has on hand 29 of 43 authorized primary care 
providers. The 29 on hand includes those that are currently deployed. 
Fort Leonard Wood is currently being manned at 50 percent in Family 
Medicine Physicians, Physician Assistants, and Family Nurse 
Practitioners.
    These shortages and reductions could have a serious detrimental 
impact on the Fort's training mission and readiness of the Army. This 
could also have a negative impact on the availability and quality of 
care provided to a very significant part of the regional population 
with thousands of members of the military, their families, and military 
retirees.
    Is there anything you would like to add about the efforts and 
challenges associated with ensuring the proper manning of Army 
hospitals?
    Answer. Army hospitals are manned by a mixture of active duty 
military, civilians, and contract manpower. The manpower requirements 
for the military population are determined by operational mission 
priorities. To mitigate gaps in military manpower, we rely on hiring 
civilian providers and contractors to support healthcare delivery, and 
send patients to the TRICARE network when military treatment facility 
(MTF) services are not available.
    Title 5 USC Section 3326 provisions limit our ability to bring on 
qualified civilian providers as the Code restricts the appointment of 
retired members of the armed forces to positions in the Department of 
Defense during the period of 180 days immediately after retirement. 
Although the Surgeon General of the Army (TSG) has waiver authority, 
the requirement to obtain waiver approval adds approximately 52 days to 
an already lengthy civilian hiring process for critical hard-to-fill 
healthcare occupations. The U.S. Army Medical Department (AMEDD) has 
lost a number of highly qualified candidates due to this additional 
delay in the hiring process.
    Question. Do you want to add or discuss anything on the status of 
efforts to construct a new hospital at Fort Leonard Wood?
    Answer. The replacement project is proceeding as scheduled. The 
design-build contract should be awarded by the end of the fiscal year. 
There are no issues or concerns at this time.
    Question. Are there any readiness shortfalls associated with the 
current medical facility and if so, how are they being mitigated in the 
interim?
    Answer. Not at this time. The Army continues to review medical 
readiness requirements at all of our installations in preparation for 
DHA transition.
    Question. Secretary Esper, a few weeks back, Secretary of the Air 
Force Wilson was testifying in front of this subcommittee. We discussed 
military families and what we can do to ensure we are doing everything 
possible to make them more appreciated. One area that was mentioned was 
reciprocity of licensure for military spouses to ensure that as 
military families move from one State to another that their 
certifications transfer from State to State.
    Can you talk a little about the value of that for military 
families, what the Army has done to be supportive of those efforts, and 
anything Congress or the States can do to further help make that 
easier?
    Answer. One employment barrier spouses face is State occupational 
licensure transfer. With each move, spouses with State licenses/
certifications may be required to take additional classes, pass State-
specific exams, and/or become re-certified. Re-licensure delays and 
expenses may cause spouses not to practice certain professions.
    The Services coordinate with the OSD Defense State Liaison Office 
who works with every State to help military spouses get licensed 
faster. In 2018, Service Secretaries wrote to the National Governors 
Association to emphasize licensure transferability as a readiness issue 
and one that could be a factor in deciding future stationing 
requirements.
    State legislatures are critical in addressing this challenge. We 
need their help in passing legislation to not only expedite receipt of 
a license through endorsement, temporary licensing, and expedited 
license applications, but to also consider polices that can drastically 
limit licensing requirements or even eliminate the need for relicensing 
as a result of military moves. Notable among these alternatives are 
interstate compacts for occupations that allow all licensees to 
establish a home State for a license and privilege to practice in all 
other member States. These measures would help us maintain spouse 
employment and individual Family financial readiness.
    Additionally, we appreciate the support of The Congress in this 
critically important area; the NDAA for 2018 gave the Services the 
authority to reimburse our spouses for licensure and certification 
costs pursuant to a permanent change of station to a different State.
                                 ______
                                 
               Questions Submitted by Senator Jerry Moran
    Question. In the fiscal year 2019 DoD Appropriations Act, Congress 
added $5 million to Army Aviation Ground Support Equipment (RDT&E, line 
145) specifically for a next generation health monitoring system 
(NGHMS). Both House and Senate bills had included this funding, 
signaling clear congressional support for a NGHMS data collection and 
validation demonstration on Army rotary-wing aircraft. However, I 
understand that to date, Army officials have failed to execute these 
funds.
    I would like to know what circumstances have caused this delay and 
a firm timeline for when the Army will meet congressional intent for 
this $5 million program increase?
    Answer. Airbus helicopters tested and evaluated the NGHMS system 
and concluded that, based on the maturity level of the current 
technology, designs and data analysis, any benefits or savings of a 
NGHMS system on the UH-72 could not be identified. Based on that 
conclusion, the Army does not plan to procure or integrate NGHMS into 
the UH-72 fleet. On 3 January 2019, the Army sent a proposal to the 
Senate Appropriations Committee Subcommittee on Defense to instead use 
the $5 million added to support the Next Generation Aviation Ground 
Power Unit (NGAGPU). That request remains with the Committee for 
decision.
    Question. Section 1647 of the 2016 National Defense Authorization 
Act requires assessments of cyber vulnerabilities in major weapon 
systems. Yet, the Department has only nine NSA-certified Cyber Red 
Teams across the Armed Forces capable of conducting cyber Adversarial 
Assessments of defense weapons systems. Further, these NSA-certified 
Cyber Red Teams lack programmatic funding, which forces these teams to 
`fend for themselves' through either reimbursable funding models, or 
modest operations and maintenance budgets that do not adequately staff, 
train, and equip the teams to emulate continually advancing threat 
capabilities.
    It is my understanding that the Army is specifically looking to 
build upon its existing cyber red teaming capabilities, the Threat 
Systems Management Office (TSMO), which has been nominated by the 
Director, Operational Test and Evaluation (DOT&E) to be the 
headquarters for a Persistent Cyber Opposing Force (PCO) construct, to 
ensure programmatic funding for NSA-certified Cyber Red Teams to 
preempt, discover, and verify potential cyber vulnerabilities, and 
develop proactive approaches to mitigate the risks of cyber-attacks.
    With Army Futures Command focused on modernization and the Speed of 
Innovation to build a more lethal and capable force, I want to make 
certain the Army can rely on and utilize NSA-certified Cyber Red Teams 
to meet requirements to assess Army weapons systems and mitigate cyber 
vulnerabilities.
    Do you support programmatic funding for NSA-certified Cyber Red 
Teams to meet current and increasing DoD demands for cyber red teaming 
of weapons systems?
    Answer. Yes. The Army's fiscal year 2020 budget request supporting 
Threat Systems Management Office (TSMO) Cyber Red Teams is $3.8M under 
Program Element 0604256A. TSMO is the Army acquisition NSA-certified 
Red Team.
    Question. Given the lack of sufficient personnel, training, and 
tools toward NSA-certified Cyber Red Teams, do you support additional 
funding to increase manpower of the current NSA-certified cyber red 
teaming force to meet the increasing demand for cyber red teaming of 
weapons systems?
    Answer. The Army continuously monitors and assesses the ever-
changing threat environment faced by our Soldiers. Near-peer 
adversarial cyber capabilities continue to emerge and grow. As such, 
the Army will continue to adjust future-year budget requests to ensure 
weapon systems and readiness to counter the adversary are properly 
maintained across and in the context of the Army's broad range of 
modernization needs.
    Question. Do you support and/or see benefit in DOT&E's concept to 
utilize the Army's TSMO as a headquarters for a Persistent Cyber 
Opposing Force (PCO) to avoid the high cost of developing a new program 
and to allow other NSA-certified Cyber Red Teams to improve information 
sharing and enhance cyber red teaming, mitigation and operational 
capabilities?
    Answer. TSMO currently leads the Persistent Cyber Opposing Force 
(PCO) effort in support of DOT&E. DOT&E is the lead for the 
Department's Combatant Command Cyber Assessment Program and is 
proposing a joint project for execution of required Red Team 
assessments by the Service elements. As I understand it, the joint PCO 
project would be a collaborative effort with other DoD Red Teams such 
as AFNG 177th Information Warfare Aggressor Squadron and the NSA. The 
Army will review this proposal to determine the best path forward.
                                 ______
                                 
               Questions Submitted by Senator John Hoeven
    Question. I was recently in Grand Forks, North Dakota to mark the 
return of the Army Flight Training program at the University of North 
Dakota (UND). The program provides scholarships to 15 Army ROTC cadets 
per year to cover the cost of their flight training. This is an 
excellent incentive for young pilots to embrace a career in Army 
aviation.
    Given the pilot shortage facing the Army and other military 
services, would the Army consider budgeting for ROTC pilot scholarships 
in future budget requests so that this program can be sustainable each 
year?
    Answer. The Army did not request the funding added for Army Reserve 
Officers' Training Corps rotary wing training in the last 
appropriations bill. Congress, however, provided funds in the fiscal 
year 2019 Defense Appropriations Act, and based on that funding the 
Army entered into an agreement for flight training program at the 
University of North Dakota. The number of Reserve Officers' Training 
Corps graduates each year who seek Aviation as one of their top three 
branch choices typically exceeds the Army's requirements for new 
officer pilots. Accordingly, the Army is not seeking to replace funding 
for the general Reserve Officers' Training Corps scholarship program 
with specialized funding for aviation or any program at a particular 
college or university.
    In addition, the pilot shortage within the Army is focused on 
Aviation Warrant Officers (AWOs) and not commissioned officers. The 
predominance of pilots within the U.S. Army are AWOs, with the Army 
requiring 50 percent more new AWOs than commissioned officers annually 
to meet the manning requirements for all COMPOs and airframes. The Army 
is currently short 647 AWOs, but is healthy on commissioned officers. 
Increasing scholarship opportunities for specialized pilot training 
through the Reserve Officers' Training Corps will not improve our pilot 
shortage challenges.
    The issue is a matter of prioritizing to make the best use of 
resources with focus on the highest Army priorities of readiness and 
modernization.
    Question. What else should we do to ensure we have enough pilots to 
meet Army needs?
    Answer. The Army is addressing the pilot shortage by increasing the 
number of new pilots we produce each year (both commissioned and 
warrant), while retaining our more experienced warrant officers. We 
have taken steps to increase the capacity of Fort Rucker to produce new 
pilots by increasing: (1) the number of aircraft on hand; (2) 
instructor pilots; and, (3) required funding, while simultaneously 
improving the maintenance capacity. We are retaining our experienced 
warrant officers by offering targeted retention bonuses to specific 
aviators, longer assignment stability incentives to provide more 
predictability for families, and increasing Aviation Incentive Pay to 
maximum Department of Defense authorized levels.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
    Question. Earlier this year, the Army announced a ``partial 
divestment'' of Army Watercraft Systems (AWS), to include a divestment 
of over half the Army's watercraft vessels and many of the reserve 
units that support this mission. This is a logistics capability that is 
essential in disaster response where ports are degraded, or in the 
event of a conflict in the Asia-Pacific. This decision was made while 
the Army itself has been vocal about the shortfall in the Navy's 
sealift capacity. Did the Army conduct a thorough risk assessment to 
estimate how the Army will accomplish these essential logistics tasks 
during a conflict or disaster response without this capability (to 
include consultation with the Navy?
    Answer. The Army conducted a review of Army Watercraft Systems 
(AWS) and directed a partial divestment in support of the overall Army 
modernization/transformation strategy. The resultant AWS strategy is 
structured to meet the National Defense Strategy (NDS) and the 
requirements of the most demanding approved Combatant Commanders' 
operational plans. The NDS does not require resourcing support of 
Humanitarian Relief/Disaster Assistance (HR/DA) operations above 
operational requirements. The Army is conducting a follow-on review of 
AWS requirements with the Navy, United States Indo-Pacific Command 
(USINDOPACOM), Joint Staff, OSD and United States Transportation 
Command to ensure the Army continues to meet NDS needs.
    Question. If the Army did a risk assessment prior to making this 
decision, please provide that assessment to the committee.
    Answer. A classified risk assessment is being updated as part of 
the ongoing analysis and requirements review being conducted with OSD, 
USINDOPACOM and others. It is not available for release at this time.
    Question. In addition, please provide the committee an anticipated 
timeline of when this divestment will occur and a specific enumeration 
of the vessels and units that will be affected?
    Answer. Transformation of AWS capabilities begins in fiscal year 
2019, impacting Regular Army (RA), Army Prepositioned Stocks (APS), 
non-doctrinal or Table of Distribution and Allowance (TDA), Army 
National Guard (ARNG), and United States Army Reserves (USAR) units, 
resulting in a smaller, more ready fleet positioned to meet the NDS. 
The Army will initiate divestiture of AWS and inactivation of USAR 
units, up to the quantity identified by the Office of the Secretary of 
Defense, Cost Assessment and Program Evaluation's Program Directive 
Memorandum (PDM), no later than September 16, 2019.
    [See timeline]
    The Army reorganizes Army Watercraft Systems (AWS) capabilities in 
the Regular Army and U.S. Army Reserves (USAR) to the following 
structure:
    Retain: 5ea Logistical Support Vessels (LSV), 10ea Landing Craft 
Utility 2000 (LCU), 13ea Landing Craft Mechanized (LCM--8) (replaced by 
Maneuver Support Vessel--Light), 2ea Small Tugs (ST), 2ea Barge Derrick 
Cranes (BD) and 3ea Modular Causeway Systems.
    Divest: 3ea LSV, 25ea LCU, 31ea LCM8, 6ea Large Tugs (LT), 14ea ST, 
and 2ea BD.

    Regular Army

----------------------------------------------------------------------------------------------------------------
                 UNIT                      LOCATION          DIVESTS        TIMELINE (NLT)         COMPONENT
----------------------------------------------------------------------------------------------------------------
73rd Transportation Company (Floating  Joint Base        1ea LT                Inactivation                  RA
 Craft)                                 Langley-Eustis,  2ea ST                  15SEPT2020
                                        VA
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
97th Transportation Company (Heavy     Joint Base        3ea LCU           Not Inactivation                  RA
 Boat)                                  Langley-Eustis,
                                        VA
----------------------------------------------------------------------------------------------------------------

    Army Reserve

----------------------------------------------------------------------------------------------------------------
                UNIT                      LOCATION         CAPABILITY       TIMELINE (NLT)         COMPONENT
----------------------------------------------------------------------------------------------------------------
709th Transportation Company          Tacoma, WA       2ea ST                  Inactivation                USAR
 (Floating Craft)                                                                 15AUG2019
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
949th Transportation Company          Baltimore, MD    1ea LT                  Inactivation                USAR
 (Floating Craft)                                      2ea ST, 1ea                15AUG2019
                                                       BD--XFER to RA
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
467th Transportation Company          Tacoma, WA       1ea LT, 2ea ST,         Inactivation                USAR
 (Floating Craft)                                       1ea BD                    15AUG2019
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
464th Transportation Company (Medium  Fort Belvoir,    9ea LCM-8                  15AUG2019                USAR
 Boat)                                 VA
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
203rd Transportation Detachment       Curtis Bay, MD   1ea LSV                 Inactivation                USAR
 (Logistical Support Vessel)                                                     15SEPT2019
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
548th Transportation Detachment       JB Pearl Harbor- 1ea LSV                 Inactivation                USAR
 (Logistical Support Vessel)           Hickam, HI                                15SEPT2019
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
175th Transportation Company          Tacoma, WA       No Vessels              Inactivation                USAR
 (Maintenance Company)                                  Assigned                  15AUG2019
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
824th Transportation Company (Heavy   Morehead City,   2ea LCU XFER to         Inactivation                USAR
 Boat)                                 NC &             RA                        15AUG2019
                                       Tampa, FL
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
481 Transportation Company (Heavy     Port Hueneme,    4ea LCU XFER to         Inactivation                USAR
 Boat)                                 CA               RA                       15SEPT2020
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
Army Preposition Stock 5              Kuwait           10ea LCU, 1ea LT,       Inactivation                 APS
                                                        6ea ST, 1ea BD,          15SEPT2019
                                                        9ea LCM8
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
Army Preposition Stock                Japan            2ea LCU, 1ea LT,        Inactivation                 APS
                                                        6ea ST, 5ea LCM8         15SEPT2019
----------------------------------------------------------------------------------------------------------------

                                 ______
                                 
                Questions Submitted by Senator Tom Udall
    Question. The Army, the New Mexico delegation, and the 
Appropriations committee worked hard to get a MILCON project to build 
an information systems facility at White Sands Missile Range. This 
MILCON project is important for continuing the important R&D, missile 
defense, and hypersonic testing the Department of Defense is planning. 
This project at White Sands Missile Range is essential to the success 
of the modernization efforts of the Army and every other service 
represented in the Pentagon.
    Will you ensure that projects like this one--that are vital to 
national security and have already been approved by Congress--will not 
be sacrificed for the President's ill-advised wall? What is your 
recommendation to OSD?
    Answer. The Army will continue to work with the Office of the 
Secretary of Defense (OSD) to ensure that Army requirements, including 
our modernization projects, are clearly understood.
    Question. Right now we don't have a budget deal. Without one, DoD 
will face sequestration. Given that situation, can you or anyone else 
truly guarantee that any Milcon project that gets raided will actually 
get restored?
    Answer. In the event the Acting Secretary decides to undertake or 
authorize military construction under section 2808 to fund border 
barrier construction in support of the President's national emergency 
declaration, DoD has no plans to cancel any MilCon projects.
    Question. As Russia and China aggressively pursue hypersonic 
weapons capabilities, it is important that advance our own hypersonic 
technology. To develop this technology, inland tests will need to be 
conducted. What is the role White Sands Missile Range will play in 
conducting the needed tests?
    Answer. The current range boundaries of White Sands Missile Range 
(WSMR) are inadequate for achieving the ranges required for the 
scheduled Hypersonic All Up Round flight tests. As the Hypersonic 
Program continues to evolve, there is potential for WSMR to play a role 
in achieving Army, Navy, and Air Force hypersonic component-level test 
objectives. However, WSMR could play a role in testing Hypersonic 
command and control systems, missile components, seekers, and new glide 
body capabilities as component-level items mature out of Science and 
Technology development efforts in the future.
    Question. White Sands Missile Range continues to be the largest 
Army installation without soldiers--that is a tenant Army unit. Will 
you work to utilize the $170 million dollars' worth of modern, 
battalion sized facilities that are vacant at White Sands Missile Range 
with permanent tenants?
    Answer. The Army does not currently plan to grow force structure at 
White Sands Missile Range (WSMR). Much of our Program Objective 
Memorandum 2021-2025 Force is focused on modernization, improving 
lethality within existing formations, and increasing capacity of our 
training base and recruiting. That said, we will continue to give 
consideration to WSMR's facilities when considering the restationing of 
units.
    Question. Will the Army be developing an urban training area to 
allow for better training in today's technologically advanced urban and 
hybrid warfare environment? And will you look at White Sands Missile 
Range as a possible location for developing this capability?
    Answer. The Army is programming to develop urban training areas to 
allow for better training in today's technologically advanced urban and 
hybrid warfare environment. Dense Urban Terrain (DUT) facilities will 
be built on existing urban warfare training sites at the National 
Training Center (NTC), Ft. Irwin, CA, and the Joint Readiness Training 
Center (JRTC), Ft. Polk, LA. Both facilities will be integrated into a 
full suite of multi-domain assets for world-class, realistic training. 
The Army has no plans to build an urban training capability at White 
Sands Missile Range.
    Question. For the last 18 years, Overseas Contingency Operation 
funding has greatly expanded and is now being used to circumvent 
legislatively defined budget caps. What is the Army's contingency plan 
if Congress does not approve such broad use of OCO funding or if 
sequestration returns?
    Answer. The funding level for the Army's fiscal year 2020 budget 
request is necessary to meet current requirements, improve readiness, 
and invest in modernization, among other things. Sequestration level 
funding would be catastrophic to current and future Army readiness and 
modernization efforts and priorities.
    Question. It was reported that the Commandant of the U.S. Marine 
Corps, General Robert Neller, warned acting Secretary of Defense 
Patrick Shanahan that a series of QUOTE ``unplanned and unbudgeted'' 
tasks that included the deployment to the border--where there is no 
emergency--constituted a QUOTE ``unacceptable risk to Marine Corps 
combat readiness and solvency.''
    The deployment of Army units to the Southwest Border has generally 
had a negligible affect on Army readiness. In fact, some units have 
improved their readiness as a consequence of their deployment.
    Do you agree with the Commandant? And how are you addressing these 
issues among your ranks?
    Answer. Thus far in fiscal year 2019, the Army managed several 
unplanned and unbudgeted tasks from an Army-wide perspective, the 
readiness impact of these events have been manageable. Based on the 
limited scope of these tasks when compared to the size and scale of the 
Army's capacity and capabilities, these do not constitute an 
unacceptable risk.
                                 ______
                                 
             Questions Submitted to General Mark A. Milley
               Questions Submitted by Senator John Hoeven
    Question. Your written statement identified six Army modernization 
priorities, including Air and Missile Defense capabilities. I'm 
particularly interested in the threats we face from enemy drones and 
how to counter those threats. Can you briefly touch on the future 
threats we face from adversary unmanned aircraft and the Army's 
strategy for dealing with those threats, either from terrorist groups 
or from near-peer competitors?
    Answer. Currently, Unmanned Aircraft Systems (UAS) are a rapidly 
proliferating threat to U.S. forces primarily as an Intelligence, 
Surveillance, and Reconnaissance (ISR) platform enabling more effective 
adversary operations. To a lesser extent, UAS have been used as lethal 
targeting platforms, and electronic warfare employment is possible. 
This threat poses risks to Army missions and forces now and in the 
future, both at home and abroad, as a low cost, high reward opportunity 
for adversaries. Current trends, driven by commercial industry and the 
military-industrial complex, point to greater capability for UAS in the 
future such as: 1) increased speed, payload, distance and flight 
duration/battery life; 2) miniaturization with improved optics and 
survivability; 3) improved guidance and control systems (e.g. GPS and 
multi-system navigation); and 4) improvements in UAS facial and object 
recognition. Technological advances in artificial intelligence and 
automation allow state and non-state actors to employ multiple UAS from 
a single operator now, or UAS to operate autonomously as a swarm in the 
future. The intelligence community assesses the majority of unmanned 
aircraft systems will originate primarily from China, either as 
commercial-off-the-shelf or military-grade hardware. These technologies 
are increasingly available to state and non-state actors, and are a 
growing concern. Russia and China continue to improve its integration 
of UAS into its ground forces. The integration of UAS with traditional 
military capabilities provides a significant force multiplier to 
improve the speed and efficiency of threat kill chains.
    The Army incorporates lessons learned and best practices from the 
assessment, development, and employment of urgent response capabilities 
provided to Combatant Commanders, in order to develop appropriate 
materiel and non-materiel requirements for Counter-Unmanned Aircraft 
Systems (C-UAS). Current and future Short Range Air Defense integrates 
many of these capabilities for C-UAS, focused on low, slow, and small 
UAS. Notwithstanding Air Defense capability, the Army has identified 
capability gaps across the operational framework. Army modernization 
will ultimately deliver a comprehensive set of C-UAS capabilities at-
echelon for Commanders to detect, identify, track and defeat threat UAS 
in support of large scale contingency operations and to protect Army 
critical infrastructure from UAS threats. The Army continues to develop 
C-UAS requirements and solutions through analysis of doctrine, 
organization, training, materiel, leadership and education, personnel, 
facilities, and policy (DOTMLPF-P).
    Question. I know that the Army does not carry out nuclear missions, 
but Congress is having an important debate about the role nuclear 
weapons play in our `Nation's defense. In particular, Russia possess a 
massive arsenal of so-called ``tactical'' nuclear weapons that it would 
consider using early in a conventional conflict, daring the U.S. to 
respond.
    How important is the U.S. nuclear deterrent in allowing Army to 
carry out its mission in a very dangerous global security environment?
    Answer. The Army strategy relies upon a modern, flexible and 
resilient nuclear deterrent to convince our adversaries that any use of 
nuclear weapons will be more costly than they can tolerate. Nuclear 
weapons, in concert with space, cyber, and conventional joint force 
capabilities, are required to provide strategic deterrence in the 21st 
Century. Should deterrence fail, the United States must maintain a 
credible capability to inflict harm at a level proportional to an 
adversary's nuclear use.
    Question. Would the Army take on additional risk if, as some people 
have called for, we scaled back our nuclear deterrent?
    Answer. The size and posture of U.S. nuclear forces should be 
commensurate with existing and emerging threats. The 2018 Nuclear 
Posture Review (NPR) process assessed the global security environment 
and endorsed the need for a strategic nuclear triad and modernization 
of our nuclear forces and enterprise infrastructure. The Army 
contributed to and supports the 2018 NPR, as well as the scope and 
scale of nuclear modernization programs of record, to address the risks 
posed by global strategic threats.

                          SUBCOMMITTEE RECESS

    Senator Shelby. The Committee is adjourned.
    We will next--excuse me. Let me--before we adjourn, I just 
want to announce that we will next meet on Wednesday, April the 
3rd, at 9:30 in the morning to receive testimony on the Defense 
Health Program.
    The Committee is in recess.
    [Whereupon, at 11:21 a.m., Wednesday, March 27, the 
subcommittee was recessed, to reconvene at 9:30 a.m., 
Wednesday, April 3.]
</pre></body></html>
